U.S. Department of Commerce                                                                       Final Inspection Report OSE-15676
Office of Inspector General                                                                                          September 2003

                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................................. i

INTRODUCTION .......................................................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 5

FINDINGS AND RECOMMENDATIONS................................................................................... 6

 I.    The Original Decision to Use Rotary TPS Technology Was Well Supported, But the
       Model Acquired Was Immature and Unproven..................................................................... 6
       A. Preference for Rotary TPS Was Supported by Analysis and Testing .............................. 6
       B. The Rotary TPS Acquired Was Not A Proven Product and Experienced Many
          Problems ............................................................................................................................ 7

 II. The Rotary TPS Was Abandoned Without Sufficient Evaluation....................................... 10
     A. The Prime Offered NOAA the Static TPS as the Subcontractor Attempted to Solve
        the Rotary Problems ........................................................................................................ 10
     B. The TPS Acquisition Shifted Emphasis from Rotary to Static TPS ............................... 13

 III. The Prime’s Static TPS May Not Be the Most Appropriate Choice for NEXRAD ............ 20

 IV. Unclear Accountability, Inadequate Information and Communication, and Insufficient
     Management Oversight Hampered Decision Making.......................................................... 28

 V. NOAA Did Not Receive “Best Value” Due to Poor Contract Negotiations and Lack of
    Oversight.............................................................................................................................. 31
    A. NOAA Paid for Defective TPS Units.............................................................................. 32
    B. Contracting Personnel Did Not Receive Appropriate Review and Oversight ................ 34
    C. Price Analysis of Proposals Was Inadequate .................................................................. 36
    D. Details of the Settlement Negotiation Are Unclear......................................................... 36
    E. NOAA Failed to Adequately Address Prime Contractor’s Contention That the
       Specification Was Impossible to Perform ....................................................................... 38

 VI. Reviews of Specifications and Other Technical Information Must Be Improved ............... 42

 VII. Purchase of the Engine Generators Was Outside the Scope of the Contract....................... 45

 VIII. Conclusion.......................................................................................................................... 47

 Appendix A. Acronyms............................................................................................................ A-1

 Appendix B. NOAA’s Response.............................................................................................. B-1
U.S. Department of Commerce                                                Final Inspection Report OSE-15676
Office of Inspector General                                                                  September 2003

                                      EXECUTIVE SUMMARY

In 1992, NOAA’s National Weather Service (NWS) began exploring technical solutions to
power supply problems affecting the 158 Next Generation Weather Radar (NEXRAD)
systems—high resolution Doppler weather radar systems jointly designed, acquired, and
operated by the Departments of Commerce (NWS), Defense (Air Force and Navy), and
Transportation (Federal Aviation Administration). A tri-agency Radar Operations Center (ROC)
located in Norman, Oklahoma, is responsible for meteorological, software, maintenance, and
engineering support for all NEXRAD systems. The ROC is a component of NWS’ Office of
Operational Systems (OOS).

The search for supplementary power sources was prompted by two problems that degraded
NEXRAD operability: power loss—and resultant loss of critical data—during transitions
between commercial power and the standby engine generator; and poor power quality at remote
NEXRAD sites, which shortens the life of the systems’ electronics and increases maintenance
costs. To solve these problems, the ROC sought to acquire transition power sources (TPS)—
uninterruptible power systems that prevent power loss to the radar during power transfer and
protect the electronics from commercial power anomalies.

The ROC assessed two TPS technologies: static and rotary. A static TPS consists of a
rectifier/battery charger, battery, and inverter; rotary units consist of an electric motor
mechanically connected to a generator. In 1993, having concluded that static technology was
less suitable due to technical, cost, and environmental issues, the ROC acquired a rotary TPS for
testing. The testing showed commercial-off-the-shelf (COTS) rotary technology to be feasible,
and NWS decided to acquire rotary TPS units for NEXRAD. The TPS is the major component
acquired under the Transition Power Maintenance Shelter (TPMS) contract, which for most sites
also includes a shelter to house the TPS, an electric toilet unit, a maintenance workbench, and
storage areas.

The Maintenance, Logistics, and Acquisition Division of OOS managed the TPS acquisition in
the preaward phase, including preparation of most acquisition documentation. As the technical
experts on the TPS, ROC engineers prepared the TPS specification, which the Maintenance,
Logistics, and Acquisition Division incorporated into the solicitation. NOAA’s Acquisition and
Grants Office (NOAA Acquisition)1 provided the contracting support.

Two companies bid to become the prime contractor (referred to in this report as the prime). Both
offered to subcontract for the same rotary TPS—a model that was in development at the time by
the manufacturer that had provided the commercially available unit tested by the ROC. The
contract was awarded on September 27, 1997. The chosen prime was also a manufacturer of
static TPS units. Development of the new model rotary TPS was subsequently completed about
a year later, and the first unit was accepted by NWS on April 28, 1998.

The ROC reported that when the new rotary TPS units were functioning well, radar component
failures and maintenance costs were significantly reduced at sites with poor power—on average

1
  In this report, NOAA Acquisition means NOAA’s Acquisition and Grants Office; when NOAA is referred to by
itself, it means both NOAA Acquisition and NWS.


                                                      i
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

by some $2,300 per site per month. However, problems were experienced on some units soon
after they were installed, and problems continued as installation progressed. Most serious were
bearing noise and failures. Although the subcontractor attempted to solve each problem, some
were resistant to a solution, particularly the bearing problem. By May 2000, with 94 rotary TPS
units installed, 33 were out of service—20 because of bearing problems, including 8 catastrophic
failures (i.e., failures that result in total destruction of the motor). On May 9, 2000, the ROC
directed that the TPS units be shut down immediately to avoid any further catastrophic bearing
failures. This directive came at the recommendation of the subcontractor, who intended to
provide an interim solution to avoid such failures until permanent corrections were implemented.
The rotary units were never reactivated, however, and contract modification 0022, which
authorized acquisition of the prime’s static TPS in place of the rotary units, was executed on
November 29, 2000.

The decision to switch to the prime’s static TPS was made without closely monitoring the
subcontractor’s progress in implementing corrections and without assessing static units from
other manufacturers. NOAA also did not consult with its partner agency—the FAA—regarding
that agency’s positive experience with (1) rotary units supplied by the same subcontractor for its
NEXRAD systems and (2) static units deployed on a similar FAA radar system that incorporated
newer technology, which might be more suitable for NEXRAD than the static units provided by
the prime.

Events surrounding the contract and the propriety of the modification prompted a letter to the
Inspector General dated August 16, 2002, from then-Representative Constance A. Morella, and a
follow-up letter from Representative Chris Van Hollen, to the Secretary of Commerce, dated
April 28, 2003, which asked the following questions:

       •   Did the National Weather Service pay for defective equipment (i.e., the original TPS
           units)?

       •   Did the actions of the NOAA contracting officer with regard to the contract
           modification that changed to a different TPS (contract modification 0022) receive
           proper review and oversight?

We sought to answer these questions, as well as determine whether (1) program and contracting
decisions regarding the TPS were reasonable and supportable, (2) the acquisition was planned
and managed effectively, and (3) goods and services were delivered as intended.

In answer to the Congressional questions, we found that NWS did indeed pay for defective
equipment, and that contract modification 0022 was executed without adequate negotiation and
without proper review and oversight by NOAA Acquisition. The result was an estimated
increase in contract costs of $4.5 million. We also found that once the rotary units began to fail,
NOAA seriously mishandled the acquisition/management process, with the result that the rotary
TPS was abandoned without sufficient evaluation and the prime’s static TPS was selected
without serious consideration of any other alternatives.




                                                 ii
U.S. Department of Commerce                                                    Final Inspection Report OSE-15676
Office of Inspector General                                                                      September 2003

Our detailed findings are summarized below.

•   The Original Decision to Acquire a Rotary TPS Was Well Supported, But the Model
    Acquired Was Immature and Unproven.

Before recommending the rotary TPS acquisition, the ROC performed an engineering assessment
of both rotary and static technologies and concluded that rotary technology was more suitable for
NEXRAD applications: rotary technology did not raise the technical and environmental issues
associated with static units,2 and was expected to be less costly. The ROC conducted market
analysis to identify a rotary unit for testing—selecting a unit that was being used successfully in
an operational demonstration of FAA’s Terminal Doppler Weather Radar (TDWR) system,
which is similar to NEXRAD. The testing showed that a rotary TPS could satisfy the goal of
acquiring COTS equipment and thereby keep costs within set limits and minimize technical and
schedule risks.

However, the rotary TPS acquired was a new model, with substantial differences from the
commercial model tested at the ROC. Without a commercial track record, the fielded units were
essentially being tested in actual operating situations, and weaknesses that might otherwise have
been exposed and corrected beforehand were causing major equipment breakdowns at NEXRAD
sites. OOS officials told us that they purchased the new units because the older model did not
meet requirements for power rating and step load response.3 However, neither the TPS
specification nor the results of the ROC’s testing support this contention. NOAA must ensure
that in future NWS acquisitions, the items actually selected and contracted for have been
thoroughly evaluated and determined to have the capability to meet all critical requirements
within acceptable levels of cost, schedule, and technical risk. (See page 6.)

•   The Rotary TPS Was Abandoned Without Sufficient Evaluation

During the initial stages of the contract, all parties—NOAA, the prime, and the subcontractor—
were committed to solving the rotary TPS problems, but the lack of progress, particularly in
solving the bearing problem, left NOAA personnel frustrated and the program behind schedule.
The first two catastrophic bearing failures occurred in October 1999. In December, the
subcontractor provided the prime with a set of corrective actions, but a day after receiving this
information, the prime was notified that NOAA would withhold more than $500,000 in
payments due because the rotary TPS units did not meet specifications. The prime ultimately
responded with a draft proposal to complete the contract with its own static TPS units.

Meanwhile, catastrophic bearing failures continued. A consultant hired by the prime to assess
the bearing failures identified the causes and recommended corrective actions, which included
equipping the rotary TPS units with a bearing relubrication system. Although the subcontractor
worked to develop and implement corrective actions, the prime’s support for the subcontractor’s
efforts waned. In a May 4, 2000, letter to NOAA Acquisition, the prime stated that in two

2
  These issues were the compatibility of static technology with the NEXRAD engine generator and the
environmental hazards of battery disposal.
3
  Step load response refers to TPS’ ability to maintain a constant output voltage when sudden load (current) changes
occur.


                                                         iii
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

areas—step load response and bearing relubrication—the contract’s TPS specification may be
impossible or commercially impractical to meet, and in other discussions referred to the
subcontractor’s corrective actions as “band-aid fixes.” Lacking confidence in the subcontractor’s
proposed solutions—including a no-cost interim solution to allow the rotaries to operate while
protecting them from catastrophic bearing failures until a permanent solution could be
developed—NWS had the rotary units permanently shut down. NOAA Acquisition requested an
alternate action plan for a static TPS and ordered two of the prime’s static units for testing.
Without ever evaluating static units from other manufacturers, NOAA then modified the contract
to acquire those of the prime.

Based on our analysis, we conclude that it was in the prime’s interest to sell its own TPS to
NOAA, and it was convenient for NOAA to purchase the prime’s static TPS using the TPMS
contract rather than seek other alternatives. If it were not for these factors, the prime and NOAA
would have had a greater incentive to closely monitor the subcontractor’s implementation of the
corrections to the rotary TPS. They also would have had a greater incentive to evaluate other
static units in addition to that of the prime. If they had taken these actions and NOAA had still
chosen to acquire the prime’s static TPS, its decision would have been more supportable.
(See page 10.)

•   The Prime’s Static TPS May Not Be the Most Appropriate Choice for NEXRAD

Concern about the compatibility of the static TPS with the engine generator was a key reason for
the ROC initially selecting rotary technology for NEXRAD. More recently, newer static
technology, which solves the engine generator compatibility problem, has become commercially
feasible. However, the static TPS purchased by NOAA does not use the newer technology and
may be less suitable for NEXRAD than are other units on the market. It also appears to be
significantly less reliable.

Engine generator compatibility. Static technology available in the early 1990s, when the ROC
performed its engineering assessment, produced high levels of harmonic currents or harmonic
distortion, which could be reflected back to the engine generator. Harmonic distortion can
overheat conductors and motor windings, reduce the engine generator’s efficiency and service
life, and damage other system components such as variable speed motors and air conditioner
controls. Total harmonic distortion (THD) is the measure used to define the effect of harmonic
distortion on power system voltage or current. To offset potential problems, systems using static
TPS units often have oversized engine generators. But this approach was not an option for NWS
when it switched to the prime’s static units, because the TPS technology acquired had to be
compatible with NEXRAD’s existing engine generators. In testing, the prime’s unit produced
reflected current THD at levels well above the 5 percent maximum that was originally
established for NEXRAD, in accordance with standards of the Institute of Electrical and
Electronics Engineers.

The newer static technology—which was commercially feasible when NWS tested the prime’s
units—reduces reflected THD to benign levels, virtually eliminating engine generator
incompatibility problems. However, NWS did not evaluate models using the newer technology.
Instead, it relaxed the requirement for reflected current THD from a maximum of 5 percent to an
average of 20 percent in contract modification 0022. The prime’s unit was thus able to meet the

                                                iv
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

revised specification, but the long-term effects of reflected harmonic distortion on component
service life are uncertain.

Reliability. FAA’s experience on TDWR would have been a valuable source of information for
NOAA in selecting a static TPS to replace the rotary. In 1998 and 1999, FAA had deployed
45 of the newer technology static TPS units to support its TDWR systems. A comparison of the
reliability of the FAA and NWS units shows significantly higher reliability for the former: mean
time between failure of over 800,000 hours for FAA’s units as compared to less than 80,000 for
those of NWS. Because NOAA did not assess the FAA’s experience, its evaluation and
decision-making process was incomplete and pertinent information was not taken into account.
In future NWS acquisitions, NOAA must identify, thoroughly analyze, and document all
reasonable alternatives. (See page 20)

•   Unclear Accountability, Inadequate Information, and Insufficient Management
    Oversight Hampered Decision Making

Two geographically separated organizations within OOS were involved in the TPMS acquisition,
the Maintenance, Logistics, and Acquisition Division at NWS headquarters in Silver Spring,
Maryland, and the ROC in Norman, Oklahoma. In the preaward phase, the program manager
and contracting officer’s technical representative (COTR) were located at OOS headquarters.
After contract award, COTR responsibility was officially transferred to the ROC, but program
management responsibility was not addressed and thus became unclear. As a result, there was a
lack of leadership and accountability on the TPS acquisition. No one was clearly assigned
responsibility for ensuring that management and technical decisions were well supported or that
senior NWS officials were given complete and accurate information to enable effective
oversight. This circumstance led to poor decision making and negotiations on
modification 0022.

To correct these deficiencies in future acquisitions of complex items for NEXRAD and other
systems, NWS must ensure that management and technical responsibilities are clear and are
assigned to personnel with appropriate acquisition and technical experience and expertise;
activities, information, and decisions are effectively coordinated among and communicated to all
concerned parties; and COTRs and program managers understand their individual
responsibilities for achieving contract and program goals and keeping supervisors and senior
agency officials fully informed of all relevant contract-related information. (See page 28.)

•   NWS Did Not Receive “Best Value” Due to Poor Contract Negotiations and Lack of
    Oversight

As problems with the rotary TPS continued, most significantly the catastrophic bearing failures,
NOAA began considering the options for addressing contract performance problems. It began to
withhold payments and issued cure notices in April and July of 2000. The cure notices cited the
prime’s failure to comply with the specifications in the contract, and requested an action plan to
correct the defective rotary TPS units. In response to the second cure notice, the prime asserted
that the specification was impossible to perform. NOAA considered alternatives to ensure the
continuity of the program, including termination of the contract for default, acceptance of the
prime’s impossibility argument and all costs, and negotiating a settlement.

                                                v
U.S. Department of Commerce                                                     Final Inspection Report OSE-15676
Office of Inspector General                                                                       September 2003



Ultimately, the decision to acquire the static TPS was formalized in contract modification 0022,
which established a new specification for the static TPS units and provided for replacement of
the 94 rotary units already installed; pricing for the 58 new TPMS sites; revised maintenance
pricing based on the new specifications; and revised data, training, and spares requirements. At
the time the modification was executed, NOAA had paid $3.8 million for equipment and
associated costs, and was withholding payments and fees of $996,499. In negotiating the switch
to its static units, the prime initially proposed the retrofit of the 94 rotary units at a cost of $4.2
million and installation of 56 new static units at a cost of $5.3 million. The proposal noted that
this amount reflected $2.6 million in credits and discounts, conditional upon NOAA’s paying the
withheld payments and fees.

Several weeks later, the prime contractor submitted a revised proposal in which it agreed to
waive the outstanding payments but reduced the discount originally offered. According to the
proposal, NOAA had agreed to the reduced discount in return for the waiver. This reduction
resulted in an increase in the total proposed price in the amount of $996,499, the exact amount of
the payments that had been withheld. NOAA accepted this proposal without adequate analysis
and negotiation, and in so doing, paid for all defective or removed rotary units. As a result of
modification 0022, total contract costs were increased by an estimated $4.5 million, as shown in
the table below. The estimated cost for the retrofit of the completed sites (with the rotary TPS)
increased the contract amount by $5,204,025. Savings were realized primarily as a result of the
price of the static TPS units being less than that of the rotary for the new installations. We
estimate these savings to be $726,723.4

                                     Cost Impact to Original Contract

                                   Prime’s Final
                                   Proposed Cost for
                                                         $5,204,025
                                   Retrofit of Sites
                                   Having Rotary Units
                                   Less Estimated
                                   Savings Attributed to
                                                           (726,723)
                                   New TPMS
                                   Installations
                                   Total Estimated
                                   Additional Cost       $4,477,302
                                   To NOAA

We found that the contracting officer responsible for the TPS acquisition did not adequately
review preaward and postaward contract documentation, ensure that a proper price analysis was
conducted, or exercise appropriate oversight for the issuance of modification 0022. The Federal
Acquisition Regulation (FAR) states that the contracting officer is responsible for evaluating the


4
  Our estimate is based on the difference between the estimated cost delineated in the basic contract for the
remaining new installations using a rotary TPS and the estimated cost for new installations with the static TPS in
modification 0022. This estimate does not include maintenance, spares, or extended warranties.


                                                         vi
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

reasonableness of proposed prices. Without adequate analysis, the contracting officer cannot
establish a strong negotiating position or know whether proposed prices are fair and reasonable.

NOAA’s ultimate acceptance of the prime’s argument that the specifications were impossible to
perform weakened its negotiation position. The prime contractor supported its assertions by
citing a Navy study on bearing lubricants. We found the results of this study unpersuasive with
regard to the TPS because, among other things, it involved different bearings, lubricants, and
operating conditions. Moreover, before contract award, the subcontractor had demonstrated that
its technology could satisfy the reliability requirement.

NOAA must ensure that quality review procedures for significant procurement actions are
established and implemented, clearly identifying roles and responsibilities, and assuring
appropriate oversight and accountability; that contracting personnel receive appropriate training
in cost and price analysis and negotiation techniques; and that contracting officers are briefed by
technical personnel regarding all technical issues that may arise in contract negotiations.
(See page 31.)

•   Reviews of Specifications and Other Technical Information Must Be Improved

Our analysis found that several TPS requirements that may not have been needed contributed to
the technical and contractual issues surrounding the bearings. The consultant hired by the prime
to assess the bearing failures concluded that the fundamental cause was insufficient bearing
lubrication and excessive vibration. The FAR stipulates that in conducting acquisitions,
agencies’ needs should be stated as performance requirements rather than design requirements
whenever feasible. The TPS specification required sealed, permanently lubricated bearings—a
design element aimed at minimizing bearing maintenance. Other requirements—that preventive
maintenance not exceed 1 hour per year and system reliability meet a mean time between failure
of 5 years—were performance elements that would have achieved the same end. But because the
design feature was prescribed, the specification had to be changed in order to allow the
subcontractor to implement the proposed relubrication system, and because such a change was
required, the prime was able to argue that the specification was impossible to meet.

The original specification also prescribed a weight limit for the TPS, which prompted the
subcontractor to substitute an aluminum version of a ductile iron component used in its
commercial TPS unit, and the substitution resulted in excessive vibration. However, the
specifications do not support the need for a weight requirement, nor was this requirement
validated after NWS learned of the substitution. Since the subcontractor used aluminum to
satisfy the TPS specification and retrofitting the units with ductile iron required a specification
change to eliminate or increase the weight limit, the prime was able to charge the government for
the retrofit.

Because specifications become legal requirements when they are incorporated into contracts, all
requirements must be necessary and expressed in a way that will allow them to withstand
contractual and legal challenges. Thus, it is essential that technical, contractual, and legal
personnel provide an integrated review of specifications and statements of work that
comprehensively address all technical, contractual, and legal concerns before a solicitation is
issued, particularly for the acquisition of complex items. Well coordinated reviews are also

                                                vii
U.S. Department of Commerce                                       Final Inspection Report OSE-15676
Office of Inspector General                                                         September 2003

needed after contract award. NOAA must ensure that in future acquisitions, government needs
are stated as performance requirements whenever feasible and that specifications receive
integrated technical, contractual, and legal review. (See page 42.)

•   Purchase of Engine Generators Was Outside the Scope of the Contract

In 2001, the TPMS contract was modified twice to allow acquisition of seven new engine
generators at various NEXRAD sites. According to NWS personnel, the upgraded generators
were needed to handle additional power loads. The TPMS contract, however, was not the
appropriate vehicle for purchasing engine generators.

Under government contract law, work lies within the scope of a contract if it was reasonably
contemplated by the parties when the contract was entered into. Replacement of the engine
generators was not the intent of the contract, and various documentation from NWS, and the
prime contractor makes clear that they were fully aware of this fact. In future NWS acquisitions,
NOAA must ensure that there is adequate review and oversight of proposed modifications to
verify and document that they fall within the scope of the contract being modified.
(See page 45.)

•   Conclusion

We found that NOAA mishandled the process of addressing the management, technical, and
contractual problems on the TPS acquisition. Unclear accountability and inadequate oversight
were significant contributors to these problems. To prevent these types of problems from
occurring on future acquisitions, NWS and NOAA Acquisition need to perform their own
evaluations to determine any additional factors that may have caused the problems on the TPS
acquisition and identify improvements that are required in policies, procedures, and oversight.
They also need to determine whether any personnel involved in the TPS acquisition require
additional training or closer supervision. (See page 47.)

                                    ********************

In its response to our draft report, NOAA agreed with our recommendations, stating they
represent good business practice, while at the same time disagreeing with most of our specific
findings. NOAA provided no comments on our finding on unclear accountability, indicating
neither agreement nor disagreement. NOAA described the decision of whether to continue with
the rotary unit as a tough judgment call for its managers. Indeed it was. And that is why NOAA
managers shortchanged themselves by failing to ensure their staffs provided accurate information
and sound analysis for making their difficult judgments. Of particular concern is the fact that,
while acknowledging many important business practices were ignored on this complex
acquisition, NOAA’s response attempts to defend virtually all of its actions and their outcomes.
We urge NOAA Acquisition and NWS to give particular attention to our recommendation to
evaluate their acquisition policies, procedures, and oversight to identify actions needed to
prevent similar problems from occurring on other acquisitions.




                                               viii
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

Where appropriate, we have modified the report based on NOAA’s comments. Most
significantly, NOAA’s response correctly pointed out that the first two rotary units purchased by
FAA did not have the permanent corrections (relubrication system and firmware) when they
were tested in the factory in June 2000, a fact FAA personnel recently clarified. FAA believed
the relubrication system was not needed because its TPS was based on the subcontractor’s
commercial design, which did not have such a system. (The relubrication system was later
installed on the subcontractor’s commercial units and FAA units.) FAA’s first two units had the
permanent firmware corrections when they were delivered in November 2000.

NOAA responded to our draft report as if we had argued that the decision on continuing with the
rotary TPS should have been delayed until FAA’s units were accepted and proven with the
permanent corrections installed. That is not the case. Rather, we state that NWS should have
been monitoring FAA’s progress in acquiring its rotary units, a position that is not changed by
the fact that the initial units tested in the factory did not contain the permanent corrections. Our
report indicates that the first two FAA units were delivered in November 2000 but were not
accepted until March and June 2001. NOAA’s response incorrectly implies that FAA’s delay in
accepting the first two units was related to its not having the corrections. It also presents
incorrect information about bearing issues on FAA’s units, which we address on page 18.

One of NOAA’s principal rationales for its decision to abandon the rotary and adopt the prime’s
static TPS is that the prime’s unit was the quickest solution for obtaining the benefits of a
reliable TPS. NOAA also stated that it did not allow the subcontractor’s interim fixes to be
implemented because they failed to perform. Our report acknowledges that the interim
corrections needed refinement, but they were certainly worth pursuing. If successful, the interim
corrections would have permitted 94 NEXRAD radars to operate with TPS protection, mitigating
the pressure to reach a decision quickly and allowing NOAA to take the time to make a more
informed judgment. NOAA’s position that haste was needed is not an acceptable reason for
failing to exercise responsible program and contract management, and, in any case, NOAA’s
position is questionable. The ROC’s own reliability data shows it takes an average of 10 days
for a failed static TPS unit to be repaired and placed back on-line protecting the NEXRAD radar.
A delay of this duration would not typically be tolerated for a critical system component.

In defending its choice of the prime’s static unit, NOAA stated that the technology met reliability
and performance specifications, and after 1.9 million hours of operation through
June 30, 2003, no negative effects were observed. However, as our report points out, the unit
only meets the specification because it was relaxed to accommodate the high levels of reflected
harmonic distortion, and problems caused by harmonic distortion may develop over the long-
term and thus not yet be apparent. And a problem recently has been experienced at one site that
NEXRAD technicians believe is caused by reflected harmonic distortion. This site’s new air
conditioning units intermittently shut down when the load is transferred to the engine generator
while the TPS is on-line. The technicians believe that reflected harmonic distortion is triggering
the phase monitors (which check the power for abnormal conditions) to shut the air conditioning
units down.

As a further rationale for abandoning the rotary and acquiring a static unit, NOAA’s response
noted that FAA had switched from a rotary TPS to a static unit in its TDWR system. What this
response does not note and NWS engineering personnel failed to state in their briefings to senior

                                                 ix
U.S. Department of Commerce                                      Final Inspection Report OSE-15676
Office of Inspector General                                                        September 2003

management is what finding IV (page 29) points out: the TDWR’s static TPS uses the newer
technology, which virtually eliminates problems caused by reflected harmonic distortion and is
more reliable than the unit acquired by NWS.

A synopsis of NOAA’s response and our comments are presented after each finding. NOAA’s
response is included in its entirety as Appendix B.




                                               x
U.S. Department of Commerce                                                      Final Inspection Report OSE-15676
Office of Inspector General                                                                        September 2003

                                               INTRODUCTION

According to the Department’s procurement executive, almost one-third of Commerce’s more
than $5 billion appropriation is spent through contracts and other procurements vehicles. Thus,
effective acquisition management is critical to the Department of Commerce. Because of the
serious, recurring problems we have identified in our acquisition and contract reviews, we view
effective management of the acquisition process as one of the top 10 management challenges
facing the Department. Careful acquisition planning, promotion of competition and prudent
review of competitive bids, adept contract negotiations, well-structured contracts, and effective
contract management are principles we focus on in evaluating the Department’s performance in
meeting this challenge. Hence, an important element of our Office of Inspector General Work
Plan FY 2002—04 is to conduct reviews and audits of selected acquisition programs, projects,
and contracts. As part of this work plan element, we evaluated program and contracting
decisions associated with NOAA’s National Weather Service (NWS) acquisition of the transition
power source (TPS) for the Next Generation Weather Radar (NEXRAD).

NEXRAD is a weather radar system (WSR-88D)5 jointly designed, acquired, and operated by the
Departments of Commerce (NWS), Defense (Air Force and Navy), and Transportation (Federal
Aviation Administration). The 158 operational NEXRAD radar systems deployed throughout
the United States and at selected overseas locations provide information to support severe
weather and flash flood warnings, air traffic safety and flow control, resource protection at
military bases, and management of water, agriculture, forest, and snow removal. A tri-agency
Radar Operations Center (ROC)6 was established to provide life-cycle support for NEXRAD.
Located in Norman, Oklahoma, ROC is a component of NWS’ Office of Operational Systems
(OOS).

TPS is being acquired7 to solve two problems: power loss during transitions between commercial
power and the standby engine generator, and poor power quality at remote NEXRAD sites.
Valuable meteorological data was lost during power transfers because the radar’s processors shut
down and restarted slowly. In addition, many NEXRAD systems are located in remote areas
with poor commercial power, causing voltage sags, surges, and other anomalies that shorten the
life of the system’s electronics and increase maintenance costs. TPS is an uninterruptible power
system (UPS) that prevents power loss to the radar during power transition and protects the
electronics from commercial power anomalies. It is the major component acquired under the
Transition Power Maintenance Shelter (TPMS) contract, which for most sites also includes a
shelter to house the TPS, an electric toilet unit, a maintenance workbench, and storage units.
Some remote sites already have shelters and are receiving only the TPS.

Three years after contract award and the installation of 94 rotary TPS units, a major contract
modification was executed to enable NWS to switch to a different TPS technology because of
problems with the units. Whereas a subcontractor had manufactured the original TPS units, the
contract was modified to procure a TPS manufactured by the prime contractor (referred to in this
report as the prime).

5
  WSR-88D stands for Weather Surveillance Radar - 1988 Doppler.
6
  The Radar Operations Center was formerly called the Operational Support Facility (OSF).
7
  The acquisition of TPS units is ongoing; startup of the final unit it scheduled for September 24, 2003.


                                                          1
U.S. Department of Commerce                                                    Final Inspection Report OSE-15676
Office of Inspector General                                                                      September 2003

Background
In 1992, the ROC began to investigate technical solutions for a TPS that would meet the
stringent requirements of NEXRAD. Two technologies were assessedstatic and rotary. A
static TPS consists of a rectifier/battery charger, battery, and inverter (figure 1); a rotary TPS
consists of an electric motor mechanically connected to a generator (figure 2). In 1993, having
concluded that static technology was less suitable due to technical, cost, and environmental
issues, the ROC acquired a rotary TPS for testing. The testing showed commercial-off-the-shelf
(COTS) rotary technology to be feasible, and the ROC’s test report was used to support the
development of acquisition documents for a NEXRAD TPS.


                                            Figure 1: Static TPS



             Main                                   DC
                               Rectifier/                           Inverter
             Source            Charger                                                    Critical Load
             AC                                                                                AC



                                                  Battery




                                            Figure 2: Rotary TPS

                      Main                                                                Critical
                      Source                                                              Load
                      AC               Motor             Flywheel       Generator         AC




The Maintenance, Logistics, and Acquisition Division of OOS is responsible for acquiring
equipment for NWS systems and developing standards and guidelines for technical
specifications and requests for proposals. This division managed the TPS acquisition in the
preaward phase, including preparation of most acquisition documentation. As the technical
experts on the TPS, ROC engineers prepared the TPS specification, which the Maintenance,
Logistics, and Acquisition Division incorporated into the solicitation. Because the TPS was the
most complex component of the acquisition, the contracting officer’s technical representative
(COTR) was located at the ROC after contract award to oversee its proper implementation.




                                                      2
U.S. Department of Commerce                                                Final Inspection Report OSE-15676
Office of Inspector General                                                                  September 2003

NOAA’s Acquisition and Grants Office (NOAA Acquisition)8 provided the contracting officers
and contracting specialists for this acquisition.

In 1996, notice of the government’s intent to purchase the TPS was published in the Commerce
Business Daily (CBD). Although NWS did not believe a TPS using batteries was feasible, it
wanted to ensure fair and open competition. Thus, the notice stated a preference for motor-
driven (rotary) technology but indicated that all technologies would be considered:

        A central component to be provided by the contractor is the high daily duty-cycle, long
        ride-through TPS that uses motor-driven technology compatible with the existing WSR-
        88D standby diesel generator. In addition to the concern for compatibility between the
        TPS and the existing generator, the NWS is concerned that necessary environmental
        conditions for energy storage batteries cannot be ensured and that routine servicing at
        remote locations cannot be guaranteed during the winter season. Notwithstanding these
        concerns, offerors are advised that all types of technologies will be considered for
        contract award.9

Two companies bid for the contract. Both offered to                      TPSs Discussed in this Report
subcontract for the same rotary TPS—a new model that            TPS Type   Description
was in development at the time—produced by the
                                                                Rotary     Older COTS Model
manufacturer that had provided the commercially                            • Tested at ROC
available unit previously tested by the ROC. The                           • Installed at FAA NEXRAD sites
contract was awarded on September 25, 1997, giving the                     New Model
prime responsibility for the overall design, integration,                  • NWS NEXRAD version
                                                                           • FAA NEXRAD version (replaced older
production, test, site preparation, delivery, installation,                     COTS model)
and documentation of the TPMS. The TPS                                     • COTS version
subcontractor was responsible for supplying the as-yet          Static     Prime contractor’s COTS model

unavailable rotary units to the prime. The chosen prime                    Competing COTS technology
was also a manufacturer of static TPS units. (See box
for a description of the various TPSs discussed in this report.) Development of the new model
was subsequently completed, and the first unit was accepted by NWS on April 28, 1998.

Widespread problems prompt contract modification
When the rotary TPS units were functioning well, radar component failures and maintenance
costs significantly declined. However, as units were installed and operated, the TPS experienced
numerous problems at many NEXRAD sites. Most serious were bearing noise and failures.
Although the subcontractor attempted to solve each problem, some were resistant to a solution,
particularly the bearing problem. By May 2000, with 94 rotary TPS units installed, 20 had
experienced bearing problems, including 8 catastrophic failures (i.e., failures that result in total
destruction of the motor). The prime had received full payment for 70 of these units and 90
percent payment for 7 additional units. On May 9, 2000, the ROC directed that the rotary TPS
units be shut down immediately to avoid any further catastrophic bearing failures. This directive
came at the recommendation of the subcontractor, who intended to provide an interim solution to

8
  In this report, NOAA Acquisition means NOAA’s Acquisition and Grants Office; when NOAA is referred to by
itself, it means both NOAA Acquisition and NWS.
9
  Commerce Business Daily, July 12, 1996.


                                                      3
U.S. Department of Commerce                                                   Final Inspection Report OSE-15676
Office of Inspector General                                                                     September 2003

avoid such failures until permanent corrections were implemented. The rotary TPS units were
never reactivated, however, and contract modification 0022, which incorporated the prime’s
static TPS into the contract, was executed on November 29, 2000.

As a NEXRAD partner, the Federal Aviation Administration (FAA) was originally part of the
TPMS contract. However, FAA decided not to use the contract for two reasons. First, the power
at FAA NEXRAD sites is particularly poor so a TPS was needed more quickly than the contract
would provide. Second, FAA did not need maintenance shelters and thus could save money by
procuring TPS units directly from the manufacturer. FAA’s NEXRAD product team initially
purchased the rotary TPS model that had been tested at the ROC and installed units at all 12 of
its NEXRAD sites. After the TPS began operating, it became apparent that because FAA sites
operate in a redundant configuration to ensure high availability—with two processors, receivers,
and transmitters in the radar data acquisition channel—a larger capacity TPS was needed. The
requirement for a larger TPS became especially pronounced after a change was made to the
NEXRAD calibration software, which increased power demand. FAA decided to replace its TPS
units with a larger version of the same new rotary model that was being purchased under the
TPMS contract, and signed a contract for the new model on October 29, 1999.

As FAA was procuring the new rotary TPS, the problems on the TPMS contract were occurring.
However, FAA officials told us they had confidence in the subcontractor’s ability to solve the
TPS problems. FAA chose not to acquire the relubrication system when it purchased the initial
new rotary TPS units. The agency believed the system was not needed because its TPS was
based on the subcontractor’s commercial design, which at the time did not have the system.
Although FAA’s units did not experience bearing problems, the agency later decided it would be
prudent to install the relubrication system, and the subcontractor also installed the system on its
commercial units. The first two units delivered to FAA had the permanent firmware corrections.

FAA began operating its first two new rotary TPS units in November 2000,10 and accepted the
twelfth and final unit in April 2003. The headquarters officials responsible for acquiring the TPS
units told us that some problems had been experienced but were easily solved. Although the
units have not been in operation long enough to conclusively demonstrate their long-term
performance and reliability, according to headquarters engineers and management officials
responsible for their acquisition and field support, the corrections were effective and the units are
performing well.




10
  The first two units, installed in Kenai and Fairbanks, Alaska, were put into operation and conditionally accepted
on November 3, 2000. Full acceptance for the Kenai unit occurred on March 19, 2001, and for the Fairbanks unit on
June 1, 2001.


                                                        4
U.S. Department of Commerce                                       Final Inspection Report OSE-15676
Office of Inspector General                                                         September 2003



                      OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of this evaluation was to determine whether (1) program and contracting decisions
regarding the TPS were reasonable and supportable, (2) the acquisition was planned and
managed effectively, and (3) goods and services were delivered as intended. As part of this
review we addressed the following issues raised in a letter dated August 16, 2002, from then-
Representative Constance A. Morella to the Inspector General and in a follow-up letter from
Representative Chris Van Hollen to the Secretary of Commerce, dated April 28, 2003:

       •   Did the National Weather Service pay for defective equipment (i.e., the original TPS
           units)?

       •   Did the actions of the NOAA contracting officer with regard to the contract
           modification that changed to a different TPS (contract modification 0022) receive
           proper review and oversight?

To accomplish our objectives, we reviewed preaward and postaward contract documentation,
including documentation and analysis in support of modification 0022; the original and revised
versions of the TPS statement of work, technical specifications, test plans, and test reports;
correspondence between NOAA and the prime; and correspondence from the rotary TPS
subcontractor to the prime. We interviewed the contracting officer and COTR assigned to the
program at the time modification 0022 occurred, and other contracts, management, and technical
personnel in NOAA Acquisition, NWS headquarters, and the ROC. We also interviewed the
attorney in the Office of General Counsel (OGC) who advised NOAA on the TPMS acquisition.
In the course of our work we found that some of the COTR’s files pertaining to modification
0022 were missing. ROC officials told us that the files were misplaced during their transfer to a
new COTR.

Additionally, we interviewed FAA personnel responsible for procuring uninterruptible power
systems for that agency’s weather radars, as well as FAA power systems experts, and we
reviewed pertinent documentation provided by FAA officials. Finally, we interviewed personnel
who worked for the prime and personnel who worked for the subcontractor that supplied the
rotary TPS. We conducted our fieldwork between November 13, 2002, and
April 2, 2003.

This evaluation was performed in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency under authority of the Inspector General
Act of 1978, as amended, and Department Organization Order 10-13, dated May 22, 1980, as
amended.




                                                5
U.S. Department of Commerce                                                    Final Inspection Report OSE-15676
Office of Inspector General                                                                      September 2003



                               FINDINGS AND RECOMMENDATIONS

I. The Original Decision to Use Rotary TPS Technology Was Well Supported, But the
   Model Acquired Was Immature and Unproven

The original decision to use a rotary instead of a static TPS was well supported, and the
availability of a COTS TPS that could satisfy program requirements was demonstrated.
However, the particular rotary TPS that was acquired was a new model without a commercial
history, and it experienced many problems.

 A. Preference for Rotary TPS Was Supported by Analysis and Testing

Before recommending that a rotary TPS be acquired, the ROC performed an engineering
assessment, market analysis, and testing between 1992-1994. This work was described in a
report transmitted to NWS headquarters in July 1994.11 According to the report, the TPS had to
meet the following engineering criteria:

•    be able to supply continuous power to critical NEXRAD electronic components during
     power transitions with no degradation of voltage or frequency;

•    be fully compatibility with all NEXRAD performance requirements and electronic circuit
     functions;

•    be environmentally sound; and

•    have low maintenance costs and low recurring costs.

The ROC assessed rotary and static technology and consulted with organizations involved in
power transition for radars including other government agencies, MIT Lincoln Laboratory, and
radar manufacturers and engineers. The assessment raised concerns about the compatibility of
a static TPS with NEXRAD equipment, as well as the environmental impacts and cost of
battery disposal for static units.12 In addition, as stated in the CBD announcement, there was a
concern about the environmental conditions for static TPS batteries since the equipment would
have to withstand a wide range of operating and storage temperatures. The assessment stated
that rotary technology appeared to pose none of these problems and had the additional
advantage of providing complete electrical isolation of the radar, and concluded that rotary
technology should be tested.

The ROC then performed a market study to identify a rotary TPS unit to be tested using
information obtained from other government agencies, private research organizations, and
industrial manufacturer and vendor listings. The unit selected was being used successfully in

11
   WSR-88D Operational Support Facility, July 6, 1994. A Rotary Uninterruptible Power System (UPS) for
Improved Performance and Reliability. Norman, OK: WSR-88D OSF.
12
   Batteries contain hazardous materials that may enter the environment. For example, lead from batteries can enter
soil and water from landfills and enter the air via municipal waste incinerators.


                                                         6
U.S. Department of Commerce                                          Final Inspection Report OSE-15676
Office of Inspector General                                                            September 2003

an operational demonstration by MIT Lincoln Laboratory for FAA’s Terminal Doppler
Weather Radar (TDWR) system, a weather radar similar to NEXRAD.

The goals of the test program were as follows:

•      Ascertain compatibility with the NEXRAD radar.
•      Determine ease of installation by field technicians.
•      Prove ease of operation.
•      Assess durability and maintainability.
•      Verify the required ride-through time (i.e., the duration that TPS can maintain output
       voltage and power ratings upon loss of power).

The ROC acquired the rotary TPS—a unit different from the one later acquired under the
contract—to perform independent testing with NEXRAD. In order to prove that the unit was
truly COTS equipment and could be handled by other than a factory-trained technician, ROC
personnel installed and checked out the unit without assistance from the manufacturer. A two-
phase test program began in May 1994. In the first phase, specific tests were conducted over a
4-day period including testing of worst-case scenarios. In the second phase, the TPS was
operated on-line for 30 days with critical parameters monitored.

The test report concluded that a rotary TPS was a viable solution for the NEXRAD power
transition issues and recommended that it be acquired. The test report was transmitted by the
ROC to NWS headquarters on July 11, 1994, accompanied by a memorandum stating that the
information was intended to support the development of acquisition documents for an
uninterruptible power system for NEXRAD. Based on this work, a specification for a rotary
TPS was prepared for the acquisition.

B. The Rotary TPS Acquired Was Not A Proven Product and Experienced Many
   Problems

According to the acquisition plan, the TPMS would use COTS equipment and technology;
therefore, the technical, cost, and schedule risks were deemed manageable. The primary
objective of acquiring COTS equipment is to capitalize on proven technology in order to reduce
the cost, time, and risk of developing a new product. The Federal Acquisition Regulation (FAR)
defines a commercial item as any item that is customarily used by the general public or by non-
governmental entities for other than governmental purposes and that has been sold or offered for
sale to the general public. A commercial item may also be one that has evolved from an existing
commercial item through advances in technology or performance, but is not yet available in the
commercial marketplace. Such an item must be available in time to satisfy the delivery
requirements under a government solicitation.13 However, the rotary TPS included in the TPMS
contract was a new model, with substantial differences from the subcontractor’s commercial
model, and it was still being developed and thus was unproven at the time of contract award.




13
     Federal Acquisition Regulation, Subpart 2.101 - Definitions.


                                                           7
U.S. Department of Commerce                                                  Final Inspection Report OSE-15676
Office of Inspector General                                                                    September 2003

The proposed rotary TPS was tested before contract award as part of the contractor selection
process. However, the unit tested was the first new model to be built and not all of its new
components were fully developed; thus, it was different from what would be delivered under the
contract and what would become available commercially. Because this TPS lacked a
commercial track record, some requirements in the factory test, such as bearing reliability, were
fulfilled, in part, using data about the manufacturer’s existing commercial model, even though
the new model was different in important respects, including greater size and weight, new
electronics aimed at better voltage control, larger bearings, and a lower bearing rotation speed.

As rotary TPS units were installed and operated at NEXRAD sites, they experienced numerous
problems, including bearing noise and failures, control card failures, vibration, voltage
regulation, and high input current. In May 2000, the ROC directed the rotary TPS units to be
shut down to avoid any further catastrophic bearing failures. At that time, 33 of the 94 installed
units were out of service—20 for bearing problems, 8 for control failures (e.g., failed drivers,
wiring issues, and high vibration ), and 5 for other problems.

During our fieldwork, OOS engineers and management officials at headquarters told us that they
had viewed the new rotary TPS design as a low-risk upgrade to the older model. They also told
us that it was necessary to purchase the new TPS because the older model did not meet the
requirements in two areas: (1) power rating, including ability to satisfy the electric power
requirements at FAA sites and NWS mountaintop sites, both of which are redundant,14 and
(2) step load response.15 However, the TPS specification and results of the ROC’s testing do not
support this position. The TPS specification requires a 35 kVA/28 kW unit, the same power
rating as both the rotary TPS tested at the ROC and the new rotary unit that was proposed and
acquired. Neither the original TPS specification nor the more recent version, which incorporates
revisions to accommodate the static TPS, contains a requirement for higher power at NWS
redundant sites. Moreover, the 1994 test report identified no deficiencies in step load response.
(As discussed in finding II (page 12), step load response proved to be a problem for the new
rotary TPS.)

In our opinion, NWS should have more carefully considered the risk associated with purchasing
a new TPS design in view of its intent to enter into a low-risk COTS acquisition. While we
understand that only the new model was bid by both offerors, we believe that NWS should have
explored the possibility of acquiring the previous model, which had a successful commercial
history. If acquiring the new model was still considered preferable, the increased cost, schedule,
and technical risks should have been explicitly accounted for in program planning and
management.




14
   FAA’s redundant configuration operates with power available to most equipment. NWS redundant systems have
two radar data acquisition (RDA) channels designed to operate with the second, or nonoperating, RDA channel in a
power-off condition.
15
   Step load response refers to TPS’ ability to maintain a constant output voltage when sudden load (current)
changes occur.


                                                       8
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

Recommendation

The Assistant Administrator for Weather Services and the Director of NOAA’s Acquisitions and
Grants Office should ensure in future acquisitions that the items selected and contracted for have
been thoroughly evaluated and determined to have the capability to meet all critical requirements
within acceptable levels of cost, schedule, and technical risk.


                                   ********************

Synopsis of NOAA’s Response

NOAA responded that the overall technology of rotary TPS units was proven effective by ROC
tests, but the specific model bid was unproven. The response stated that the size of the required
TPS unit was not changed from the original 35 kVA requirement and that bidders chose to offer
the new unit. NOAA said that ROC engineers anticipated that FAA might need to operate two of
the older model units in parallel because of the mode of operation at those sites. The response
indicated that motor generators sets are not efficient at high altitudes, meaning that a larger
emergency motor generator set—not a larger TPS unit—is required. It contended that FAA’s
change to a larger motor generator and larger rotary TPS confirms the demands a rotary TPS
makes on a motor generator set.

OIG Comments

Like NOAA’s response, our report states that rotary TPS technology was proven. That is why
we believe NOAA was remiss in accepting the prime’s contention that the specification was
impossible to perform, as discussed in finding V (pages 38-39). Our report also indicates that
only the new model was bid by both offerors and argues that NWS should have explored the
possibility of acquiring the previous model, which had a successful commercial history. We
stated that if, in fact, acquiring the new model was considered preferable, the increased cost,
technical, and schedule risks should have been explicitly accounted for in NOAA’s program
planning and management.

NOAA’s response discussed the rotary TPS and motor generator sets; since the rotary TPS is a
motor generator and considering the points being made by NOAA in its response, it appears that
NOAA is referring to “engine generator” sets and is arguing the need for larger engine
generators at high altitudes. This finding, however, does not address engine generators, but
rather the justification for purchasing a new rotary TPS for a program that intended to acquire
COTS equipment. Engine generators are discussed in finding VII (page 45), where we explain
why NOAA’s purchase of new generators was outside the scope of the TPMS contract. That
finding disputes how the larger engine generators were purchased, not whether they were
needed.




                                                9
U.S. Department of Commerce                                                   Final Inspection Report OSE-15676
Office of Inspector General                                                                     September 2003

II. The Rotary TPS Was Abandoned Without Sufficient Evaluation

The subcontractor worked to correct the problems with the rotary TPS, but its lack of progress,
particularly in solving the bearing problem, left NOAA personnel frustrated and the program
behind schedule. As the prime began proffering its static TPS and NOAA began to show
interest, the prime’s support for the rotary waned. In November 2000, NOAA officially
abandoned the rotary and adopted the prime’s static TPS, without having made a serious attempt
to assess other alternatives. As the decision to switch was being made, the rotary subcontractor
had come to understand the causes of the problems and was devising more effective corrections.
However, NOAA lacked confidence that these corrections would be effective and did not ensure
the subcontractor’s efforts were adequately monitored. We believe that NOAA abandoned the
rotary TPS without sufficiently evaluating the progress being made on the corrections. At the
same time, FAA was purchasing rotary TPS units directly from the subcontractor—a larger
version of the same TPS model—for use on its own NEXRAD systems.

A. The Prime Offered NOAA the Static TPS as the Subcontractor Attempted to Solve the
   Rotary Problems

The time line of major program events, which appears on the next page and subsequent pages,
traces the series of steps that led to the contract modification. At first, all parties—NOAA, the
prime, and the subcontractor—were committed to solving the rotary TPS problems. Discussions
were ongoing at program management reviews and technical interchange meetings, as well as in
correspondence and other communications between NOAA and the prime and between the prime
and subcontractor.

Problems continued, however. In May 1999 NOAA withheld payment for defective units for the
first time, and in October 1999, the first two catastrophic bearing failures occurred. On
November 9, 1999, the COTR sent a letter of concern to the prime about the bearings, as well as
other problems, and a TPS issues meeting was held in early December. Two weeks later, the
subcontractor provided a set of corrective actions to the prime, some of which it was still testing
and a few that it was ready to implement. The next day, the prime was notified that the
government would withhold more than $500,000 for five TPMS systems because the TPS units
did not meet specifications. On December 22, the prime sent a letter to NOAA Acquisition with
a proposed action plan, which, in addition to addressing the rotary TPS, stated that a draft value
engineering change proposal (VECP)16 was being prepared with the goal of improving
performance, reliability, quality, and life-cycle costs. The proposed change in this VECP was a
shift to the prime’s static TPS.




16
  A VECP is a proposal designed to reduce the overall projected cost to the agency without impairing essential
functions or characteristics. The objective is for the contractor and government to share in the savings.


                                                        10
U.S. Department of Commerce                                                                 Final Inspection Report OSE-15676
Office of Inspector General                                                                                   September 2003

On January 18, 2000, the
NOAA contracting officer                                           Time Line of Major TPS Events
sent a second letter of                   September 1997
concern addressing the                                •   Contract awarded.
reliability of the rotary TPS,            March 1998- April 2000
including the catastrophic                            •   94 TPS units are installed
                                          July 1998
bearing failures, and                                 •   Two units experience computer card failures.
requested an action plan. On              May 1999
February 1, the prime                                 •   NOAA withholds payment for defective units at 4 sites.

responded that it was not yet             October 1999
                                                      •   Two catastrophic bearing failures occur.
ready to submit a detailed
                                          November 1999
action plan because proven                            •   COTR sends first letter of concern to prime contractor.
solutions for all identified
                                          December 1999
problems had not been found.                          •   TPS issues meeting is held with NOAA, prime contractor, subcontractor.
On February 4, the prime                              •   Subcontractor sends corrective action plan to prime contractor

submitted a draft VECP for                            •   NOAA withholds payment for defective units at 5 sites.
                                                      •   Prime contractor sends proposed action plan to correct rotary and states
completing the contract with                              it plans to submit a VECP (for a static TPS).
its static TPS in lieu of the             January 2000
subcontractor’s rotary TPS.17                         •   NOAA Acquisition sends second letter of concern to prime contractor.
                                                      •   Three catastrophic bearing failures occur.
                                                      •   NOAA withholds payment for defective units at 3 sites.
On March 29, after a total of
                                  February 2000
eight catastrophic bearing                 • Prime contractor responds to letter of concern stating it is not ready to
failures, the subcontractor                    submit a corrective action plan.

sent a letter to the prime                 •   Prime contractor submits draft VECP to complete contract with its static
                                               TPS.
strongly recommending that                 • Two catastrophic bearing failures occur.
the fielded TPS units be shut              • Subcontractor provides assurance that catastrophic failures do not pose
                                               a safety risk.
down until an improved                     • NOAA withholds payment for defective units at 5 sites.
vibration detection system        March 2000
and revised motor controller               • Prime contractor hires vibration consultant to assess problems with
           18
firmware were installed in                     rotary TPS.
                                           • Subcontractor sends letter to prime contractor recommending shutdown
order to avoid further bearing                 of fielded TPS units until corrections to avoid bearing failures are made.
failures. The letter stated that           • Prime contractor recommends shutdown of fielded TPS units until all
these corrections were                         known deficiencies are corrected.

“Service Required” upgrades
that the subcontractor wanted to install as soon as possible. The prime forwarded the letter to the
government the next day, recommending that the units be shut down until all known deficiencies
were corrected. (NWS decided to shut down the TPS units 5 weeks later, and they were never
restarted.)

Also in March, the prime hired a consultant specializing in vibration analysis to assess the
bearing failures. The consultant identified two principal causes of the failures:

17
   At that point, 50 units had not been deployed, of which 33 had not yet been ordered. The draft VECP identified
the specification requirements that would have to be changed to allow a static TPS to be used and proposed two
alternatives: substitute the static TPS for all 50 remaining units or substitute the static TPS for the 33 units that had
not been ordered.
18
   Firmware is software (programs or data) that has been written onto read-only memory. Firmware is a
combination of software and hardware.


                                                              11
U.S. Department of Commerce                                                                       Final Inspection Report OSE-15676
Office of Inspector General                                                                                         September 2003

(1) excess vibration from TPS’ aluminum construction and poor motor field control, and
(2) insufficient bearing lubrication. In an April 7 report, the consultant made four major
recommendations that it believed would solve the problems:
                                                                                           • Replace the aluminum
  Time Line (continued)                                                                      motor end bell19 with iron.
  April 2000                                                                               • Improve the firmware for
            • Vibration consultant submits report with recommendations for correcting        better motor field control.
                rotary TPS problems.
            • NOAA Acquisition sends first cure notice to prime contractor.                • Improve vibration
            • Subcontractor provides corrective action plan to prime contractor, which       monitoring.
                includes corrections recommended by the vibration consultant and
                                                                                           • Install a system to
                reiterates the need for authorization to implement corrections so that TPS
                units avoid bearing failures.                                                continuously lubricate the
  May 2000                                                                                   bearings.
              •   Prime contractor responds to cure notice with corrective action plan, but
                  notes that it may be impossible or commercially impractical to meet the
                  requirements.
                                                                                                 (The rotary subcontractor’s
              •   Technical interchange meeting is attended by government, prime                 perspective on the bearing
                  contractor, and subcontractor to discuss corrective actions. Use of prime      problem is discussed on page
                  contractor’s static TPS is also discussed.
              •   NOAA Acquisition officially requests alternative action plan for static TPS.
                                                                                                 14.)
              •   ROC orders immediate shutdown of rotary TPS units.
              •                                                                       On April 19, NOAA
                  Prime contractor receives order for two static TPS units for testing at ROC
                  and El Paso.
          •                                                                           Acquisition sent a cure notice
                  Prime contractor submits VECP for static TPS and corrections to rotary
                  TPS.                                                                to the prime citing failure to
  June 2000                                                                           comply with the contract’s
          • ROC tests static TPS at El Paso, Eglin AFB, and Laughlin AFB.             specifications in three areas:
          • Subcontractor sends letter to prime contractor stating it has received no
            detailed information on government’s issues with corrective action plan.  step load response, reliability,
          • Two FAA units successfully complete factory acceptance testing (without   and vibration, the latter two
            permanent corrections).
          • FAA provides briefing information to NWS urging continued consideration
                                                                                      areas addressing the bearing
            of rotary TPS.                                                            issues. The notice stated that
          • Subcontractor offers NOAA a direct procurement option.                    NOAA had not received an
                                                                                      acceptable corrective action
plan to remedy the deficiencies identified in the two previous letters of concern, and that a
decision about the shutdown would be made after it had received the corrective action plan.

Subcontractor’s Corrections Rejected
On April 27, the subcontractor provided a corrective action plan to the prime that addressed the
problems in the cure notice, including implementing the recommendations of the vibration
consultant. The subcontractor reiterated that it had demonstrated corrections that, if made, would
allow the units to operate without further catastrophic failures until permanent corrections could
be devised, but noted that it had been denied authorization to implement them. The
subcontractor wanted to provide these corrections at no cost and to ship them to the NEXRAD
locations for installation by government site technicians, and had previously assured NWS that
operating the units would not pose a safety hazard. The prime’s May 4 letter to NOAA
Acquisition responding to the cure notice discussed actions to correct the rotary TPS—including
the no-cost interim corrections proposed by the subcontractor—but also stated that in the case of
step load response and the bearing relubrication system, it might be impossible or commercially


19
     An end bell is the housing at the end of the motor that joins the electrical connections with the motor.


                                                                        12
U.S. Department of Commerce                                                             Final Inspection Report OSE-15676
Office of Inspector General                                                                               September 2003

impractical to meet the requirements of the specification. The letter offered no explanation for
these assertions.
                                                Time Line (continued)

A technical interchange meeting        July 2000
                                                 • NOAA Acquisition sends second cure notice to prime contractor and requesting
was held on May 4-5, attended                       explanation of why any work is considered outside contract scope or price.
by all of the parties. The                       • Prime contractor responds to cure notice and states “technical impossibility”
meeting covered, among other                        argument.

things, the actions being taken        July−August 2000
by the subcontractor to solve the August 2000    • ROC tests static TPS at Vance AFB.
problems and a demonstration                     • NOAA Acquisition sends letter addressing prime contractor’s response to the
of its prototype relubrication                      second cure notice, which states that the government is not convinced the
                                                    specification cannot be met.
system. The alternative of             August−September 2000
using the prime’s static TPS                     • Prime contractor submits proposals for retrofit of rotary TPS and static TPS
was also discussed. According                       alternative.

to our interviews, NOAA                September 2000
                                                 • NOAA Acquisition sends letter to the prime contractor transmitting specification
representatives left the meeting                    for a static TPS and requesting proposal by October 11.
believing that the relubrication       October 2000
system and other proposed                        • Prime contractor submits proposal for static TPS.
corrections were crude and not         November 2000
worth pursuing. On May 8,                        • Subcontractor sends letter to prime contractor stating that it has received no
                                                    information since May meeting.
NOAA Acquisition officially                      • FAA deploys first new rotary TPS. Units had permanent firmware corrections;
requested an alternate action                       FAA had not yet decided to utilize relubrication system.
plan for a static TPS, and on                    • Modification 0022 to purchase static TPS executed.
May 9 the ROC ordered
immediate shutdown of the
rotary TPS units, rather than authorize the corrections aimed at preventing further catastrophic
failures and allowing the units to resume operations. On May 12, the prime received an order for
two of its static TPS units to be installed at the ROC and El Paso for testing.20

NWS’s decision against authorizing the interim corrections remains perplexing in light of the
benefits provided by the rotary TPS units: when these units successfully operated at sites with
poor power quality, component failures were significantly reduced. According to the ROC,
maintenance costs at these sites decreased on average by $2,300 per site per month. Although
there is some indication that the interim corrections may have needed refinement, savings of this
magnitude would make efforts to resume operations of the rotary TPSuntil its problems were
permanently resolved or an alternative was implementedseem highly desirable.

B. The TPS Acquisition Shifted Emphasis from Rotary to Static TPS

The prime communicated the government’s lack of confidence in the rotary TPS corrections in a
letter to the subcontractor after the May meeting, and from that time on appeared to focus on
promoting its own static TPS and to make no further effort toward supporting improvements to
the rotary. Meanwhile, the subcontractor continued to develop, test, and evaluate solutions to the
rotary TPS problems.

20
  These units were purchased from the GSA schedule. On July 7, NOAA ordered additional static TPS units for
Eglin AFB, Laughlin AFB, and Vance AFB.


                                                               13
U.S. Department of Commerce                                                        Final Inspection Report OSE-15676
Office of Inspector General                                                                          September 2003



On May 25, the prime submitted a second VECP, this one the alternate action plan that had been
requested, and met with the government the following week to discuss it. Although it included
an option to continue with the rotary TPS, the VECP focused on using the prime’s static unit for
all TPS installations, arguing that it provided the best option for performance, reliability, and
life-cycle cost, and offered the lowest schedule risk. Substitution of the static TPS would have
carried an increased cost to the contract of $5.4 million, but the prime contractor offered a
management deduction “in the interest of
maintaining an excellent working                     Rotary Subcontractor’s Perspective on Bearing Problem

relationship with the Government,”                Lubrication
bringing the price tag down to $4.5               The vibration consultant recommended using iron end bells to reduce
                                                  vibration. The subcontractor used ductile iron in its COTS units, but had
million. Correcting the rotary TPS carried        substituted aluminum for NWS in order to satisfy the weight limit in the
an increased cost to the contract of $3.1 to      TPS specification.
$3.9 million, depending on whether the            The subcontractor believed that insufficient lubrication, rather than
fielded units were retrofit on-site or in the     vibration, was the principal cause of the bearing failures, and did not
                                                  believe iron end bells were needed, although they were offered to NOAA
factory, and did not include a discount.          as a corrective action. The subcontractor took this position because some
                                                         of its COTS units, which used ductile iron and thus did not have the
                                                         vibration problem, also needed premature bearing replacements.
On June 5, the subcontractor sent a letter to
the prime objecting to its failure to support            Possible Shipping Damage
its corrective actions or make a good faith              The subcontractor believed a possible contributor to the bearing problems
                                                         and other system failures was mishandling by another subcontractor
effort to resolve the issues. The letter said            responsible for shipping the TPS units to the NEXRAD sites. Before
that the prime had provided no detailed                  delivery, the rotary subcontractor placed shock watches on the units—
                                                         devices that are tripped if cargo has been exposed to excessive shock or
information on the nature of NWS’                        impact.
concerns, and it objected to the prime’s
                                                         A log was to be filled out indicating the condition of the shock watches at
characterization of the corrective actions to            each stage of delivery. However, this information frequently was not
NWS as “band-aid fixes.” Finally, the                    recorded, and removing the shock watches could cause them to trip,
                                                         making it difficult to determine if or when a problem occurred. In addition,
letter stated that the prime’s efforts to                the prime contractor argued that the shock watches had been set
undercut the credibility of the proposed                 improperly and would not accurately indicate shipping damage.
corrective actions began to intensify at                 As a result, it was not possible to determine whether mishandling during
about the time it became aware of the                    shipping had caused damage to the bearings or other TPS components.
government’s intent to request alternative
TPS solutions.

The subcontractor wrote directly to the NOAA contracting officer on June 14, forwarding the
June 5 letter. The subcontractor again said that it had not received any detailed information
concerning the government’s lack of confidence in the corrective actions and described its
contract with FAA, indicating that two FAA units had successfully completed factory acceptance
testing without discrepancies. The subcontractor offered NOAA a direct procurement option and
provided a rough cost estimate in an attempt to ensure that its solution would be fully and fairly
considered. Since NOAA had no direct legal relationship with the subcontractor, it was under no
obligation to respond and did not do so.

Contract requirements, costs modified
On July 19, the contracting officer sent the prime a second cure notice stating that it was troubled
by the prime’s offer to provide what NOAA believed was required performance under the
contract at an increased price. The contracting officer requested a detailed explanation of the
reason why any of the work was considered outside the scope or price of the contract. In a July

                                                         14
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

28 letter, the prime identified TPS requirements that it maintained were impossible to perform.
The contracting officer’s response on August 15 stated that the government was not convinced
the specification could not be met. It referred to the fact that testing of the older model rotary
TPS did not identify any unachievable requirements, and it pointed out that the government had
allowed reductions in capability to accommodate the TPS that was chosen. As discussed in
finding V (pages 38-39), we do not find the prime’s arguments convincing, but this letter was
NOAA’s only attempt to formally refute them.

On September 26, NOAA Acquisition transmitted a TPS specification to the prime that had been
revised to accommodate the proposed static unit and requested a change proposal by October 11.
Contract modification 0022 was executed on November 29, 2000, to incorporate revised
specifications for the prime’s static TPS into the contract and to establish a formal written
compromise of all outstanding contract issues to date.

Meanwhile, the subcontractor wrote to the prime on November 1, stating that it had received no
information since the May meeting and summarizing the results of its efforts to correct the rotary
TPS deficiencies. The letter pointed out that two FAA units had successfully completed all
factory and on-site testing, and were supporting two NEXRAD systems in Alaska, one in Kenai
and the other in Fairbanks. It also noted that commercial deployment of the relubrication system
was underway. NOAA had been informed of the FAA units’ completion of factory testing in the
subcontractor’s June 14 letter, but it is unclear if it was aware that by November, two were
operating in Alaska. In June 2000, FAA had urged NWS to monitor the subcontractor’s progress
before reaching a decision. However, NWS did not do this, nor did it follow up with FAA on the
progress of its rotary TPS acquisition.

Rotary TPS units may have a higher initial cost than static units, but they frequently have lower
recurring cost, making them less expensive on a life-cycle basis. NWS’ analysis of life-cycle
costs did not yield this result, which may have contributed to its decision to abandon the rotary.
NWS concluded that between FY 2000 and FY 2021, the static TPS would cost about
$14 million less than the rotary. However, the validity of the analysis is questionable because it
assumed there would be little, if any, improvement in the efficiency and reliability of the rotary
TPS.

Only the Prime’s Static TPS Evaluated
While we agree that it was appropriate for the prime and NOAA to investigate alternatives to the
subcontractor’s rotary TPS in view of its history of problems, it is troubling that the only
alternative ever offered by the prime or evaluated by NOAA was the prime’s own product.
Moreover, NOAA failed to seriously examine alternative static TPS technology that is arguably
better suited to NEXRAD, as discussed in finding III (pages 20-25).

It appears that even during source selection, the prime viewed its static TPS solution as a
possibility, and it attempted to propose this technology during best and final offers. NOAA
rejected the attempt at that time as being too late and too disruptive. During our fieldwork, we
were told that after the contract was awarded, the prime’s marketing personnel would mention
using the company’s static TPS to NOAA staff, although the contractor’s TPMS program team
did not raise this topic.



                                                15
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

Conclusion
Based on our analysis, we conclude that it was in the prime’s interest to sell its own static TPS to
NOAA, and that it was convenient for NOAA to purchase this TPS using the TPMS contract
rather than seek other alternatives. Thus, the prime and NOAA lacked incentive to closely
monitor and thoroughly evaluate the subcontractor’s progress in implementing corrections to the
rotary TPS or to evaluate other static options. Although it cannot be known what NOAA would
have chosen to do if these actions had been taken, whatever choice it ultimately made—whether
to continue with the rotary TPS, acquire the prime’s static TPS, or purchase a different static
TPS—would have been more supportable.

Recommendation

The Assistant Administrator for Weather Services and the Director of NOAA’s Acquisition and
Grants Office should ensure in future NWS acquisitions that all reasonable alternatives for the
items being procured are identified, thoroughly analyzed, and well documented.

                                    ********************

Synopsis of NOAA’s Response

NOAA stated that the first two rotary units installed had performance and reliability problems,
which were discussed with the prime as early as May 1998. The response described a visit by
ROC engineers to the subcontractor’s factory in July 2000 where they saw an FAA unit without
the permanent corrections being tested. In addition, NOAA indicated our discussion of the
vibration consultant’s recommendations is incomplete and inaccurate and advised us to include
the recommendations verbatim. The response also stated that the aluminum construction did not
technically cause the vibration in the rotary TPS, but rather resonance at 120 Hz, which NOAA
asserted could have been avoided had the subcontractor checked the overall design for
resonance.

In discussing reasons why interim corrections were not installed, NOAA said (1) the corrections
failed to perform, (2) NWS field technicians were not qualified to install them, (3) continuing to
operate the rotary TPS units might endanger staff, and (4) continued TPS usage would limit the
government’s rights for future contract decisions.

NOAA stated that the change to the prime’s static was the best-value business decision, arguing
that it was in the government’s interest to install a reliable TPS, the interim fixes provided no
improvement in rotary TPS performance and reliability, and the permanent corrections were not
yet available and tested on the FAA model ROC engineers saw in the subcontractor’s factory in
July 2000. NOAA further stated that the prime contractor’s TPS was compatible with
NEXRAD, and the competing static TPS was more costly and could not have been installed as
quickly as the prime’s unit. Consequently, the government would have foregone the financial
benefits of lower operations and maintenance costs and the operational benefits of avoiding
computer restarts and lost data caused by commercial power anomalies.

According to the response, FAA’s rotary TPS units require yearly bearing changes, as well as
frequent maintenance of the relubrication unit. It further stated that FAA engineers on site

                                                16
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

during installation of rotary units advised NOAA that the subcontractor routinely ships rotary
units with old bearings and changes them on site. NOAA further asserted that at the
May 8, 2000, meeting, the subcontractor had recommended yearly bearing replacement for the
NEXRAD units once the relubrication system was installed.

Finally, the response maintained that NWS seriously examined alternative static units. It stated
that after a visit by a manufacturing representative for the competing static unit, NWS intended
to purchase this unit for testing, but decided not to after concluding that the testing could be
interpreted as directing the prime’s engineering solution.

OIG Comments

To address NOAA’s point that the rotary TPS experienced problems early in the acquisition, we
have added the earliest documented failures to the chronology presented in this finding. These
failures reinforce our argument in finding I (pages 7-8) that the rotary TPS selected was
immature and unproven and the decision to acquire it should have been more carefully
considered. We have made changes to the finding to address when the initial FAA units received
permanent corrections.

During our review we extensively questioned NOAA engineering, management, and contracting
staff about the nature and progress of the permanent corrections the subcontractor was making to
the rotary units. Never was a July 2000 visit to the subcontractor’s factory ever mentioned.
Equally troubling was the lack of information in the contracting officer or COTR’s files
documenting findings or issues from that visit.

While it is true that FAA’s units were not being tested with the corrections at the time the July
visit would have taken place, ROC engineers visiting the factory could have examined and
reported on a relubrication system being tested on a commercial unit. An internal memorandum
prepared by the subcontractor, dated July 5, 2000, states that the relubrication unit could be ready
for field deployment for NWS or FAA units within 2 to 3 weeks of an order to perform work.

We believe our report accurately summarizes the pertinent recommendations of the vibration
consultant. Regarding whether the aluminum construction caused the vibration, the consultant’s
testing found the resonant response at 120 Hz to be the primary cause of the vibration and to
occur where the aluminum end bell was used, but not with the ductile iron end bell. As noted,
the consultant specifically recommended replacing the aluminum with iron. We believe our
characterization is accurate. Finding VI (page 42) points out that NWS should have validated the
weight requirementwhich was the reason the subcontractor deviated from its commercial
practice and substituted aluminum for iron in NWS’ TPSand if it was needed, should have
been proactive in ensuring that an analysis of the potential effects of substituting aluminum was
performed before agreeing to its use.

Our report clearly acknowledges that the interim corrections needed refinement, but were worth
pursuing because of the known benefits of reactivating the TPS units. According to the
subcontractor, the proposed corrections were simple installations that any electronics technician
would be capable of handling, and the subcontractor had intended to assist the technicians
through telephone support. Highly trained NEXRAD technicians surely would not have found

                                                17
U.S. Department of Commerce                                                            Final Inspection Report OSE-15676
Office of Inspector General                                                                              September 2003

these installations onerous. As the report notes, personnel safety does not appear to have been an
issue as the subcontractor had assured NWS (in writing) that the operation of the rotary units
posed no hazard. Although NOAA’s response asserted that limiting the government’s rights for
future contract decisions was a consideration, again, no one we interviewed ever indicated this
had been a factor at the time in rejecting the interim corrections, and we found no documentation
in either the contracting officer or COTR’s file to support this argument.

As discussed in finding III (pages 21-23), the specification for reflected THD was relaxed well
beyond IEEE recommended practice in order to accommodate the prime contractor’s static TPS.
Although as NOAA’s response pointed out, the competing static unit is more expensive to
acquire initially, NWS did not perform a life-cycle cost analysis of the competing static unit and
thus, did not, in fact, know whether it actually is more costly over its life cycle. Moreover,
overall costs to NWS are increased if the engine generator or other system components have to
be replaced prematurely.

One of NOAA’s principal rationales for its decision to abandon the rotary and adopt the prime’s
static TPS was speed. According to NOAA, acquiring the prime’s unit was the quickest solution
for obtaining the benefits of a reliable TPSquicker than allowing the subcontractor to
implement corrections on the rotary TPS or purchasing a competing static unit. We question
whether haste was justified. As we have seen, little effort was made to support the
improvements to and installation of the interim corrections, which would have allowed 94
NEXRAD sites to continue to benefit from TPS protection. Furthermore, the ROC’s own
reliability data shows that it takes an average of 10 days to repair a static TPS unit and place it
back on-line.21 A delay of this duration is not typically tolerated for a critical system component.

According to FAA headquarters personnel responsible for the rotary TPS contract, the agency
has experienced no bearing problems on its rotary units, and plans to replace the bearings every
5 years, not annually as asserted by NOAA. FAA decided to have the bearings changed before
units were placed in service initially to reduce the chance of failure due to damage during
shipment. Also when units are not operating, bearings have to be rotated every 30 days, and
shipment and installation can take longer than that. Maintenance of the relubrication system
consists of replacing the batteries and reloading the lubrication canister. When the systems were
first installed, a 6-month maintenance schedule was used due, in part, to several battery failures.
This problem has been corrected, and maintenance of the relubrication system is now performed
annually with the rest of the system.

NOAA’s belief that the subcontractor had recommended yearly bearing changes with the
relubrication system appears to be a misunderstanding. In a letter to the prime, the subcontractor
offered to warrant the bearings on the NWS rotary units for 3 years after the relubrication system
was installed, and also stated that it was willing to replace them on an annual basis at no cost if
necessary.

Finally, it is difficult to understand how receiving a marketing visit from a manufacturing
representative and intending to test the competing static unit, but not actually doing so, can be
described as a serious examination of alternatives. Asking the prime to test additional units in

21
     This statistic refers to the length of time it takes to fix failures that prevent the TPS from operating.


                                                               18
U.S. Department of Commerce                                    Final Inspection Report OSE-15676
Office of Inspector General                                                      September 2003

order to determine best valuewithout requesting particular brandswould not be directing a
solution, as NOAA stated, but rather managing the contract responsibly.




                                             19
U.S. Department of Commerce                                                          Final Inspection Report OSE-15676
Office of Inspector General                                                                            September 2003

III.    The Prime’s Static TPS May Not Be the Most Appropriate Choice for NEXRAD

Concern about the compatibility of the static TPS with the engine generator was a principal
reason for the ROC initially concluding that static technology would be problematic for
NEXRAD. More recently, newer static technology, which solves the engine generator
compatibility problem, has become commercially feasible. As noted earlier, however, in
deciding to switch to the static TPS, NOAA evaluated only the prime’s unit and did not perform
an analysis of other static alternatives. The static TPS purchased does not use the newer
technology and may be less suitable for NEXRAD than other units on the market. It also appears
to be significantly less reliable.

Engine Generator Compatibility
A major challenge in the design of electric power systems is controlling reflected harmonic
distortion (see figure 3). Static TPS technology available when the ROC performed its initial
engineering assessment used a 6-pulse silicon controlled rectifier (SCR). This technology
produces high levels of harmonic currents or harmonic distortion, which can be reflected back to
the power source, including to the engine generator, and cause high voltage distortion.
Consequences of high current and voltage distortion include overheating of conductors and
motor windings, and instability in voltage and frequency regulation. Other potential effects
include reduced efficiency and service life of the engine generator, as well as problems with
other system components such as power supplies, variable speed motors, power factor
improvement or filter capacitors, air conditioner controls, and in severe cases, cables and wiring.
Total harmonic distortion (THD) is the measure used to define the effect of harmonic distortion
on power system voltage or current.

                                   Figure 3: Example of Harmonic Distortion
                       Undistorted alternating current has the shape of a sine wave. In the U.S.,
                      alternating current is usually generated at a frequency of 60 hertz, called the
                    fundamental. Harmonic distortion is any deviation of current or voltage from the
                          fundamental and has a frequency that is an exact multiple of 60 hertz.
                       Nonlinear loads—such as the 6-pulse SCR—draw a nonsinusoidal current
                     when supplied by a sinusoidal voltage source and produce harmonic distortion.




   0°         45°           90°            135°           180°           225°            270°           315°   360°

                                    Undistorted Current
                                    Harmonic Distortion




                                                          20
U.S. Department of Commerce                                                      Final Inspection Report OSE-15676
Office of Inspector General                                                                        September 2003

Because of the importance and complexity of controlling harmonics, the Institute of Electrical
and Electronics Engineers (IEEE) developed Standard 519-1992, IEEE Recommended Practices
and Requirements for Harmonic Control in Electrical Power Systems, to guide the design of
power systems with nonlinear loads.22,23 Systems incorporating 6-pulse SCR units often oversize
the engine generator as a means of avoiding harmonic heating and instability. However, one of
the constraints placed on the selection of TPS technology for NEXRAD was that—to avoid
additional costs—existing engine generators were not to be replaced. Based, in part, on the
technology available for assessment at the time the ROC performed its initial engineering
analysis and on the engine generator sizing issues, ROC engineers concluded that static
technology probably was not feasible using a commercial product. The IEEE standard, as
applied to NEXRAD, establishes a maximum limit of 5 percent for current THD, and consistent
with this standard, the original TPS specification allowed a maximum current THD of 5 percent.

Since the time of the ROC’s TPS evaluation in the early 1990s, a newer rectifier design has
become available. This design uses insulated-gate bipolar transistor (IGBT) semiconductors,
and reduces reflected current THD to benign levels, virtually eliminating engine generator
incompatibility problems and the need to oversize the engine generator. However, the prime’s
static TPS uses a 6-pulse SCR and consequently produces high levels of current and voltage
THD.

The results of testing the static TPS with NEXRAD at the ROC in May 2000 were documented
in a test report. According to the report, the TPS exhibited no problems. However, voltage THD
reached almost 19 percent, and current THD exceeded 10 percent.24 The ROC’s analysis of the
harmonic issues found that although the TPS was equipped with an input filter that reduces
current THD, its use impaired the engine generator’s voltage regulation, potentially causing
over-voltage and shutdown, so the report recommended the filter not be used. The report said
that the voltage THD effects may not be detrimental because the load on the engine generator is
relatively light (50 percent of rated capacity), and impacts are typically experienced when the
engine generator is operated near or at its rated capacity. The report indicated that ROC
engineering personnel were working with the engine generator manufacturer to determine
whether any detrimental effects could be expected. The report recommended that the static TPS
be installed at several field sites for long-term testing, optimally 6 months, to detect possible
problems.

The test report recognized that voltage THD was well above the IEEE standard for harmonic
control, but stated that the standard is primarily intended as guidance for utility power
operations. However, high current and voltage THD can cause problems for any power system
with nonlinear loads, and the standard states that it is to be used for guidance in the design of
such systems.

After analyzing data from the ROC’s testing and from a radar system power demand profile
provided in May 2000, the engine generator manufacturer advised that it would generally size a

22
   The Institute of Electrical and Electronics Engineers, Inc., 1993. IEEE Recommended Practices and
Requirements for Harmonic Control in Electrical Power Systems, IEEE Standard 519-1992. New York: IEEE.
23
   A nonlinear load draws a nonsinusoidal current when supplied by a sinusoidal voltage source.
24
   Current THD was not presented in the test report but identified in a letter to the engine generator manufacturer.


                                                          21
U.S. Department of Commerce                                                Final Inspection Report OSE-15676
Office of Inspector General                                                                  September 2003

larger generator for the particular TPS in question, but stated that it saw no problems with
generator performance or life due to harmonic heating. This conclusion was based on the current
and voltage THD produced during testing at the ROC, and the assumption that the TPS and the
engine generator loads would be relatively light.

Rather than the 6 months recommended in the test report, testing was performed for between
4 and 12 days each at four additional sitesEl Paso, Eglin Air Force Base (AFB), Laughlin
AFB, and Vance AFB. No test report was prepared, but available data shows THD levels even
higher than those at the ROC:

•    El Paso had maximum voltage THD of 25 percent, and
•    Eglin AFB had maximum current THD of 26 percent and maximum voltage THD of 15
     percent.

Although most NEXRAD systems use the same engine generator, the first 10 radar systems to be
fielded were equipped with a different brand, including the system at Eglin AFB. In August
2000, the ROC requested input about THD effects on that engine generator and provided data
from the Eglin AFB test. The manufacturer’s sizing program indicated that the engine generator
size was sufficient, but this conclusion appears questionable because the materials provided in
the manufacturer’s response show that the analysis erroneously assumed the static TPS was
using a 10 percent THD input filter.

As shown in table 1, the prime’s first VECP in February 2000 indicated that its static TPS had
reflected maximum current THD of 10 percent and did not meet the specification requirement for
a maximum of 5 percent. This information was repeated in its May 2000 VECP and was
apparently based on the assumption that the THD input filter would be used. A maximum
current THD level of 10 percent would probably not have been a major concern if voltage THD
did not exceed this level, and is within the tolerance FAA has established for its electronic
equipment.25 However, the testing found the THD input filter could not be used.

Table 1 shows that as the actual amount of reflected current THD became apparent to NWS, the
permitted level changed accordingly. In September 2000, NOAA Acquisition transmitted a
revised specification to the prime with its request for an alternate proposal. In the revised
specification, the requirement for reflected current THD was increased from a maximum of
5 percent to a maximum of 20 percent. Another specification change was that current THD was
to be measured at full radar load rather than at any load factor, an additional relaxation since 6-
pulse SCR systems produce their lowest levels of current THD at full radar load, with the level
increasing as the load declines. By the time contract modification 0022 was executed, the
requirement had been relaxed further. Specifically, although current THD remained at 20
percent, the allowable amount had actually been increased because the requirement specified an
average value instead of a maximum amount. In addition, a limit on voltage THD was added to
the specification—an average of 15 percent—for contract modification 0022. We could find no
reason for why these changes would have been made except to accommodate the actual
performance of the prime’s TPS with NEXRAD.

25
  Department of Transportation, October 22, 2001. FAA Specification, Electronic Equipment, General
Requirements, FAA-G-2100G. Washington, DC: DOT.


                                                     22
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003



           Table 1: Evolution of Harmonic Distortion Requirement in Specification


                                                               Radar
                        THD Percent            Maximum
                                                               Load
                                               or Average
    Date                                                      Factor*             Source
                Current         Voltage       THD Percent
November
1996                5         Not specified    Maximum          Any      Original specification
February and       10         Not specified    Maximum          Any      VECPs
May 2000
September          20         Not specified    Maximum          Full     Draft specification with
2000                                                                     request for alternate
                                                                         proposal
November           20              15           Average         Full     Revised specification
2000                                                                     for contract
                                                                         modification 0022
*THD is lowest at full radar load for 6-pulse SCR technology and increases as the load declines.

NWS justified its decision to purchase a system with harmonic distortion well in excess of
recommended industry practice on the basis of the opinions of the engine generator
manufacturers that it would do no harm to the engine generators. However, the current THD
limits in the revised specification are significantly higher than those on which one manufacturer
based its opinion, and the other manufacturer’s opinion is questionable because its calculations
incorrectly assumed that the THD input filter was being used.

NWS officials indicate that the engine generator is working well with the static TPS and no
negative effects have been observed. Nevertheless, the long-term effects of high harmonic
distortion on component service life remain uncertain. In addition, since the service life and
performance of the engine generator depend on both itself and the TPS being lightly loaded,
NWS will have to carefully plan and monitor power system impacts when enhancing radar
functionality or equipment. Under these circumstances, what makes the decision to accept the
prime’s TPS for NEXRAD particularly dubious is the fact that other static TPS units that permit
consistency with recommended engineering practices and do not present these potential
problems were available at the time the decision was made, but no static TPS other than that of
the prime was evaluated.

Reliability
Because the FAA has extensive experience using static TPS units on its weather and surveillance
radar systems, it would have been a source of valuable information on the issues involved in
selecting a static TPS to replace the rotary TPS. Particularly pertinent is FAA’s experience on
TDWR, a weather radar similar in design to NEXRAD. To avoid outages caused by commercial
power losses, FAA installed static TPS units on 45 TDWR systems between 1998 and 1999.
Located near high-activity airports, TDWR systems disseminate real-time warnings and
advisories to aviators and air traffic control decision-makers. However, NWS did not investigate


                                                23
U.S. Department of Commerce                                                        Final Inspection Report OSE-15676
Office of Inspector General                                                                          September 2003

FAA’s experience. During our fieldwork, the former COTR for the TPMS contract dismissed
the static TPS used on TDWR, stating it had reliability problems and was less efficient than the
static TPS being purchased for NEXRAD.

FAA personnel on the TDWR product team, as well as engineers involved in FAA agency-wide
power systems acquisition, management, and operations told us, on the contrary, the TPS has
performed extremely well and is highly reliable. Before deploying this TPS, FAA tested one of
the TPMS prime’s static units on TDWR. According to FAA’s test report and FAA personnel
involved in the testing, this TPS had performance and maintainability issues that made it less
desirable for TDWR.

Furthermore, a comparison of the reliability data collected by FAA and NWS indicates that
FAA’s static TPS is far more reliable. As of January 6, 2003, TDWR TPS units had experienced
2 relevant failures in more than 1.6 million hours of operation,26 while as of January 31, 2003,
NEXRAD static TPS units had 19 relevant failures in fewer than 1.5 million hours of
operation.27 As shown in figure 4, the mean time between failure (MTBF) for the NEXRAD
TPS is more than a full order of magnitude less than that of the TDWR TPS (over 800,000 hours
for FAA’s TDWR units as compared to less than 80,000 for those of NWS).


                                  Figure 4: Comparison of Mean Time Between Failure
                                            for NEXRAD and TDWR Static TPS




                                 800,000
                  MTBF (Hours)




                                 600,000
                                                                                     NEXRAD TPS
                                 400,000                                             TDWR TPS

                                 200,000

                                       0




26
   Relevant failures cause the TPS to go into bypass (i.e., to no longer supply the load). Excluded are externally
induced failures such as faulty wiring or instances in which the TPS goes into bypass and then recovers, and
instances of “infant mortality” (i.e., early life failures that are not included in determining reliability). One failure
identified as relevant for FAA is not actually considered to be a relevant failure by some cognizant FAA personnel,
but we presented the more conservative position.
27
   This number excludes environmental control unit failures.


                                                           24
U.S. Department of Commerce                                                 Final Inspection Report OSE-15676
Office of Inspector General                                                                   September 2003

Battery reliability was a concern in originally selecting TPS technology and was one of the
reasons why a rotary TPS, which does not have batteries as a major component, was preferred.
Repeated demand on the battery, potentially reducing battery life, will occur if there are frequent
power quality problems. A briefing prepared by the ROC on the technical issues affecting the
TPS acquisition strategy noted that many sites are located at the end of long rural power lines
and have poor power quality.28 According to the briefing, these sites can experience numerous
power outages and anomalies daily, and it noted that a test conducted at the Salt Lake City
NEXRAD site found up to 40 power outages and brownouts per day.

The revised TPS specification requires the batteries to be capable of at least 200 complete full-
load discharge cycles,29 and according to OOS engineers, batteries are expected to last 3 to 5
years. However, 5 of the 19 relevant failures reported for the NEXRAD TPS were battery
failures, and they occurred on systems that had been in operation from about 1½ to 2 years.
Three of these failures occurred at sites in mountaintop or rural areas—one in Salt Lake City and
the others in Aberdeen, South Dakota, and Billings, Montana. The other failures were at
Edwards AFB and San Joaquin, California. In contrast, the TDWR TPS experienced no battery
failures in the time frame covered by our analysis. This may be attributable, in part, to the fact
that they are located near busy airports, which unlike many NEXRAD locations, are not likely to
have power quality problems. Another factor may be that—according to the manufacturer of the
TDWR TPS—TPS technology with the newer rectifier design extends battery life because step
loading does not drain the batteries. The same brand of TPS as on TDWR is used as an
uninterruptible power supply in some weather forecast offices, and there have been recent reports
of early battery failures on some of these units as well. Thus, the reasons for the premature
battery failures are unclear, and NWS plans to look into this issue further.

FAA personnel emphasize that their perspective is not intended as criticism of the TPMS prime’s
product in particular, but is the consequence of the inferior performance of 6-pulse SCR
technology, regardless of manufacturer, with FAA radar systems.

Inadequate Evaluation Process
We could not evaluate the former COTR’s assertion that the TDWR TPS was less efficient
because we could not find comparable data on the efficiency of the two TPS systems. The
important factors to consider in assessing alternatives, however, are the performance, reliability,
maintainability, and life-cycle costs, as well as benefits and problems of the system as a whole,
not just isolated system characteristics. Although the high level of harmonic distortion and the
disparity in reliability between the NEXRAD TPS and TDWR TPS cause us to question the
choice that was made, it is not within our domain to determine the most appropriate TPS for
NEXRAD. Thus, our intent is not to apply hindsight to that choice but to highlight the
inadequacy of the evaluation process, which, given the information presented above
information that was available when NOAA decided to acquire the prime’s TPScasts serious
doubt on the outcome.



28
   L. Carvajal, November 28, 1995. TPS Technical Issues Affecting Acquisition Strategy, Norman, and OK:
WSR-88D Operational Support Facility.
29
   A battery cycle is a discharge plus a charge.


                                                      25
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

Recommendation

As in finding II (page 16), we recommend that the Assistant Administrator for Weather Services
and the Director of NOAA’s Acquisition and Grants Office ensure in future NWS acquisitions
that all reasonable alternatives for the items being procured are identified, thoroughly analyzed,
and well documented.

                                    ********************
Synopsis of NOAA’s Response

NOAA stated that the prime’s static TPS was proven and stable technology that met reliability
and performance specifications. NOAA indicated that subsequent reliability data over
1.9 million hours of operation as of June 30, 2003, shows it is compatible with the engine
generator. Reflected THD for the competing static unit is 5 to 7 percent according to its
specifications and will be higher for a dynamic load like NEXRAD. NOAA indicated that the
testing data for El Paso does not show voltage THD of 25 percent, as presented in the report;
rather, it said that no voltage THD values above 20.6 percent were found.

According to the response, the change in the reflected harmonic distortion specification allowing
it to be measured at full radar load as opposed to any load factor is not a relaxation of the
specification. Rather, it takes into account that the measurement has to be taken at full radar
load and the NEXRAD load is very nonlinear. By specifying reflected THD at full radar load,
NWS is ensuring that the TPS performs under operational loads rather than an artificial linear
load as represented in a factory test.

NOAA believes that some of the differences in reliability between the TDWR and NEXRAD
TPS are attributable to differences in commercial power quality: NEXRAD radars typically are
located in rural areas with poor power while TDWR radars are in urban environments with much
better commercial power quality. An additional reason for the differences in reliability,
according to NOAA’s response, is that NWS tests the TPS weekly for failures as part of an
overall test of the emergency power distribution subsystem, allowing for the discovery and
correction of TPS failures on a weekly basis. FAA, on the other hand, only reports failures
discovered in actual operation of the TPS. NOAA stated that this means NWS may report more
failures than FAA since FAA failures can go undetected for long time periods.

OIG Comments

Although NOAA’s response states that the static TPS meets the specification, as we have noted
in this finding, the prime’s static TPS only does so because the specification was modified to
accommodate the unit’s extremely high levels of reflected harmonic distortion. The 1.9 million
operating hours cited by NOAA is cumulative over all of the units in operation, but the duration
of operation is still relatively brief for any one unitless than 3 years. As the report points out,
problems caused by reflected harmonic distortion can be long-term in the making and thus not
yet apparent. However, we are aware of a problem at one site that NEXRAD technicians believe
is caused by reflected harmonic distortion. This site’s new air conditioning units intermittently
shut down when the load is transferred to the engine generator while the TPS is on-line. The


                                                26
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

technicians believe that reflected harmonic distortion is triggering the phase monitors (which
check the power for abnormal conditions) to shut the air conditioning units down.

Although the newer technology static TPS does produce harmonic distortion, the levels are low
and the deleterious effects are virtually eliminated. This is the case even when the TPS is
operated with a dynamic radar load. The 25 percent voltage THD at El Paso that we discuss was
documented in a briefing prepared by the ROC on the results of compatibility testing of the
prime’s static TPS with the NEXRAD radar. Even it that were not the case, the 20.6 percent that
NOAA referenced is also excessive.

NOAA’s response stated that by changing the specification for reflected THD to be measured at
full radar load, NWS was not relaxing the specification, but ensuring the TPS performed under
operational loads rather than under an artificial linear load as represented in a factory test.
However, the original specification already required testing at no load, half load, and rated and
required load. This means testing under operational loads was already mandatory and limiting
testing to an artificial linear load had been precluded. Thus, ensuring realistic testing was not a
valid reason for changing the specification.

Our report discusses the fact that some of the differences in reliability between the TDWR and
NEXRAD TPS may be attributable to differences in commercial power quality. It points out that
the poor power quality at some NEXRAD siteswhich can reduce battery lifeis a reason why
rotary technology was preferred originally. However, 14 of the 19 failures addressed in this
report for the NEXRAD TPS were not battery failures and are not attributable to power quality.
FAA has both newer technology static TPS units and the prime’s units operating at a variety of
sites, including those with poor power quality; its power system experts have told us that the
former are more reliable in all locations.

The TDWR TPS is used for power conditioning and therefore operates continuously; it also has
a remote monitoring capability that detects failures when they occur. Thus, the differences in
reliability cannot be attributed, as NOAA claims, to differences in frequency of operation or in
detecting and reporting failures. If NOAA means that its units fail more frequently because
weekly testing of the emergency power distribution subsystem is transferring operations from
commercial power to the backup engine-generator, this is cause for concern. Protecting power
loss to the radar during such power transitions is one of the principal functions for which the TPS
was designed; testing this functionality should not induce failures.




                                                27
U.S. Department of Commerce                                      Final Inspection Report OSE-15676
Office of Inspector General                                                        September 2003

IV. Unclear Accountability, Inadequate Information and Communication, and
Insufficient Management Oversight Hampered Decision Making

The TPS acquisition lacked leadership and accountability. No one was clearly assigned
responsibility for ensuring that management and technical decisions were well supported or that
senior NWS officials were given complete and accurate information to enable effective
oversight. These problems contributed to questionable decisions, as well as inadequate
negotiations on modification 0022, as discussed in finding V (pages 31-39).

Unclear Accountability
Two geographically separated organizations within OOS were involved in the TPMS acquisition,
the Maintenance, Logistics, and Acquisition Division at NWS headquarters in Silver Spring,
Maryland, and the ROC in Norman, Oklahoma. This division of responsibilities made
accountability and leadership ambiguous. For example, we asked various NOAA Acquisition
and NWS managers and staff members involved in the TPMS program to identify the program
manager and received the following answers:

       1.   ROC engineering branch chief
       2.   ROC deputy director
       3.   COTR
       4.   OOS director
       5.   An OOS Maintenance, Logistics, and Acquisition Division employee

The only document we could find that identified a program manager was the 1996 acquisition
plan. However, the individual identified, an OOS engineer, told us that he is not the program
manager, and he has not been functioning as such. After the contract was awarded in 1997,
COTR responsibility was officially transferred from OOS headquarters to the ROC, but program
management responsibility was not explicitly addressed and thus became unclear. As a result,
there was a lack of leadership and accountability on the TPS acquisition.

Inadequate Information and Communication
Two key documents prepared by the ROC illustrate the decision-making information provided to
NWS headquarters management, the first, a briefing presented to the Assistant Administrator for
Weather Services on September 6, 2000, and the second, a memorandum for the Maintenance,
Logistics, and Acquisition Division chief dated November 20, 2000. The objective of the
briefing was to determine a strategy to move the TPMS program forward, while the
memorandum attempted to justify the decision to procure the static TPS. These documents
present the litany of problems experienced with the rotary TPS over the course of the contract,
the actions taken to solve the problems, and the lack of proven solutions to several of them.
They point out the solution to the bearing problemthe relubrication unitwas a factory
prototype that was not field tested, and they convey an overall lack of confidence in the
subcontractor’s ability to make the needed corrections.

FAA’s acquisition of the new rotary TPS was not addressed in these discussions. Two months
before the briefing to the Assistant Administrator, two FAA rotary TPS units had successfully
completed factory acceptance testing (without the permanent corrections, as noted previously).
By the time of the memorandum to the division chief, FAA units were operating in Alaska with

                                               28
U.S. Department of Commerce                                               Final Inspection Report OSE-15676
Office of Inspector General                                                                 September 2003

the firmware corrections. The subcontractor had begun deploying the relubrication system
commercially, although FAA had not yet decided to use the system on its units. However, NWS
senior management officials were not made aware of this information.

FAA’s experience was invoked, however, when it appeared to support use of the prime
contract’s static TPS, but the information provided was incomplete and in our opinion
misleading. In arguing that using the static TPS was low risk, the briefing to the Assistant
Administrator stated the static TPS was “Proven in Similar Applications (e.g., TDWR & ASR-
9).”30 Referring to the prime’s static units that had been tested at five NEXRAD sites, the
memorandum to the division chief asserted, “Units of this type are presently supplying power to
similar FAA radars.”

Absent, however, was information explaining the difference between the TDWR’s static TPS
and that of the prime—that is, that the former uses newer technology, which is free of harmonic
distortion problems, while the latter produces harmonic distortion significantly in excess of
recommended practice and that NWS’ TPS specification was being considerably relaxed to
accommodate the prime’s older technology. These documents also failed to discuss FAA’s
experience with the prime’s TPS on ASR-9, which showed these units to be less reliable then
other commercially available units. Finally, the materials did not point out that FAA had tested
the prime’s static TPS with TDWR, but chose not to purchase it based on performance and
maintainability issues.

It is unclear whether ROC personnel knew all of this information, but it is clear that a more
vigorous effort to obtain the relevant facts and present them to headquarters should have been
made. A possible reason for the incomplete information on FAA’s use of static TPSs may be
that the ROC relied on the representations of the prime, which stated in both of its VECPs,

           The Federal Aviation Administration (FAA) utilizes static TPS units on their
           Terminal Doppler Weather Radar systems with very good success. [The prime]
           has installed these units at several FAA TDWR facilities.

These statements imply the prime’s static units are operating on TDWR, but that is not the case.
Rather, during our fieldwork, the prime told us the proposals were referring not to its own static
TPS but to a competitor’s unit, which the prime had installed. As the technical lead in acquiring
the TPS, the ROC had an obligation to find out which TPS equipment FAA was using with its
radar systems and what its experience had been, to use this information to help identify and
assess alternatives, and to clearly and accurately communicate the findings to NWS senior
management.

Insufficient Management Oversight
By the same token, management and technical oversight from headquarters was wanting. We
could find no evidence that OOS management had ensured that headquarters engineering staff
closely evaluated the information provided by the ROC or assessed the technical issues in order
to make certain that NWS senior managers had the necessary information for oversight and
decision making. Several headquarters engineers told us that after contract award, they moved

30
     ASR-9 is an FAA airport surveillance radar with a weather channel.


                                                          29
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

on to other assignments and spent little time on the project, and one told us that headquarters
staff lacked the expertise to make their own judgments about the technical aspects of the TPS.

Thus, after contract award, it became unclear which person or organization within OOS was
responsible for the TPMS program, resulting in a lack of management and technical
accountability, leadership, and oversight. These conditions allowed decisions to be made with
insufficient review, and incomplete and inaccurate information.

Recommendations

The Assistant Administrator for Weather Services should ensure that NWS managers take the
following actions:

1. In future acquisitions of complex COTS or developmental items,

       a. clearly assign and enforce program management accountability and responsibility,
          and
       b. give management responsibility and technical leadership of the acquisition program
          to personnel with appropriate acquisition and technical expertise and experience.

2. In future acquisitions for NEXRAD,

       a. effectively coordinate activities and share information between the ROC and
           headquarters, and
       b. effectively coordinate activities and decisions, and share information among the
          NEXRAD tri-agency partners.

3. Ensure that COTRs are aware of their responsibilities and are held accountable for

       a. achieving the cost, schedule, and technical performance goals of the contract and
          program;
       b. making appropriate trade-off among these goals when necessary; and
       c. providing clear and accurate information and advice to the contracting
          officer and senior program and agency officials.

4. Ensure that program managers are aware of their responsibilities and are held
   accountable for

       a. achieving the cost, schedule, and technical performance goals of the contract and
          program;
       b. making appropriate trade-off among these goals when necessary; and
       c. providing clear and accurate information and advice to senior agency officials.

                                    ********************

NOAA provided no specific comments on this finding.



                                                30
U.S. Department of Commerce                                                    Final Inspection Report OSE-15676
Office of Inspector General                                                                      September 2003

V. NOAA Did Not Receive “Best Value”31 Due to Poor Contract Negotiations and Lack
   of Oversight

After a number of catastrophic bearing failures in the rotary TPS units, NOAA began
considering possible options open to it to settle contract performance problems. As previously
discussed in this report, NOAA began to withhold payment on the rotary units in an effort to
enforce the prime’s accountability for satisfactory performance under the contract. In April and
July of 2000, the contracting officer issued cure notices32 to the prime, citing its “failure to
comply with the contract’s specifications” and requesting an action plan that would correct the
non-performing, i.e. defective, TPS rotary units. The prime responded that the specifications
were technologically impossible to meet, and based its assertion primarily on a study performed
by the Navy on bearing grease life. Discussions were then initiated to determine the course of
action that would be in the best interest of the prime and the government.

At the briefing presented to the Assistant Administrator for Weather Services on September 6,
2000, three alternatives were discussed with the goal of moving the program forward. The first
alternative was to terminate the contract for default and reprocure, an option deemed potentially
costly as well as risky due to the uncertainty surrounding the validity of the contractor’s claim of
performance impossibility. The second alternative was to accept the prime’s impossibility
argument as well as all additional costs in order to enable the program to continue. The third
alternative, described as providing best value for the government, called for a settlement to be
negotiated and the program to be restarted. According to the briefing, the third alternative was
recommended and would provide a “win/win” situation for both the prime and the government.

The decision to acquire the static TPS alternative from the contractor was formalized with the
issuance of modification 0022 to the original contract, which was signed on
November 29, 2000. The modification was complex, with 15 separate attachments. It
established a new specification for the static TPS units and provided for replacement of the 94
rotary units already installed; pricing for the 56 new TPMS sites; revised maintenance pricing
based on the new specifications; and revised data, training, and spares requirements.

We found that the recommended negotiation approach was not used. Instead, NOAA accepted
the prime’s contention that the specification was impossible to perform. This decision, in
addition to inadequate price analysis and lack of review and oversight, led to poor contract
negotiations, which resulted in the government paying for the defective equipment. As shown in
table 2, the estimated cost impact of the modification to the contract was an increase of
$4.5 million.




31
   FAR 2.101 defines best value as “the expected outcome of an acquisition that, in the Government’s estimation,
provides the greatest overall benefit in response to the requirement.
32
   Cure notices are required by the Federal Acquisition Regulation Part 49.402-3 when termination of the contract
for default is being considered. The government may terminate for default when it is determined that the contractor
has failed to make progress and as a result performance is endangered.


                                                        31
U.S. Department of Commerce                                                        Final Inspection Report OSE-15676
Office of Inspector General                                                                          September 2003



                                 Table 2: Cost Impact to Original Contract

                                   Prime’s Final Proposed
                                   Cost for Sites Having  $5,204,025
                                   Rotary Units
                                   Less Estimated Savings
                                   Attributed to New        (726,723)
                                   TPMS Installations
                                   Total Estimated
                                   Additional Cost        $4,477,302
                                   To NOAA

The estimated cost for the retrofit of the completed sites (with the rotary TPS) increased the
contract amount by $5,204,025. This was offset by savings realized primarily as a result of the
lower cost for the new static TPS installations, which we estimate to be $726,723. Our estimate
is based on the difference between the estimated cost delineated in the basic contract for the
remaining new installations using a rotary TPS and the estimated cost for new installations with
the static TPS in modification 0022.33

A. NOAA Paid for Defective TPS Units

Ninety-four rotary TPS units had been installed by the time modification 0022 was executed.
Seventy of these had been fully paid for, and all but 10 percent of the cost of 7 additional units
had been paid as well, for a total of roughly $3.7 million (table 3). In May of 1999, NOAA
began withholding payment, as the installed units failed to perform to specification. When the
units were shut down on May 9, 2000, NOAA also withheld payment of maintenance fees
amounting to $284,389. Allowable maintenance costs were later calculated in the amount of
$161,145 so that withheld maintenance was reduced to $123,244. As of November 2000,
withheld payment and maintenance fees totaled $996,499 on 24 installed units (including the 7
units for which there was a 10 percent outstanding balance).

On September 26, 2000, the contracting officer sent a request to the prime for an alternate
proposal for resolving the deficiencies of the rotary TPS. A revised TPS specification was
attached. On October 6, 2000, the prime submitted a proposal for a solution using its static TPS
equipment. It included pricing for the retrofit of the 94 previously installed rotary TPS units in
the amount of $4,207,526, and for 56 new installations in the amount of $5,318,893, totaling
$9,526,419. According to the proposal, this amount included savings of $2,593,083, which
consisted of $1,887,179 in credits and discounts relating to the retrofit, and $705,904 for savings
relating to the remaining new installations. The proposal also stipulated that the discounts were
conditional upon receiving payment for the outstanding invoices for delivered hardware,
services, and data. Offered savings were also to include any credit for removed rotary units;
however, there was no supporting documentation detailing this credit. The prime’s proposed
prices were based on its GSA schedule, and in some cases, prices were lower. For example,

33
     This estimate does not include maintenance, spares, or extended warranties.


                                                           32
U.S. Department of Commerce                                                      Final Inspection Report OSE-15676
Office of Inspector General                                                                        September 2003

placement and installation of the static TPS was offered at a price that was 3 percent below the
GSA schedule price.

            Table 3: Payments Authorized on Installed TPS Units as of November 2000

                                                        Amount Paid          Amount Withheld
               Of the 94 installed:
                              70 rotary units $ 3,401,585                    $           0
                               7 rotary units     306,142                           47,156*
                              17 rotary units           0                           826,099
               Subtotal                       $ 3,707,727                    $      873,255
               Maintenance                        161,145                           123,244
               Total                          $ 3,868,872                    $      996,499
               *Includes $13,139 in associated shelter costs.


On November 2, 2000, the prime submitted a revised proposal. The price for the retrofit of the
installed rotary units at 94 sites was increased by $996,499 to $5,204,025, and the pricing for the
new installations remained the same. The increase resulted from a reduction in the original
$1,887,179 in discounts and credits proposed, as well as an increase in the cost of removing the
existing units and changes in the pricing for the shelter modifications. According to the
proposal’s cover letter, these reduced discounts were based on an offer by NOAA to accept a
lower discount in return for the prime’s agreeing to waive payment for the delivered equipment
and services the prime believed it was due—the $996,499 that had been previously withheld by
NOAA due to out of specification performance of the TPS units and related maintenance
(table 4). NOAA officials could not confirm nor did they deny that such an offer was made,
however, the proposal was used as the basis for the pricing in the modification.

As shown in table 4, the outcome originally proposed by the prime would have resulted in a cost
to NOAA of $9,072,897 for the rotary TPS units and retrofit with static units of the sites where
the rotary units had been installed. This cost was composed of $4,865,371, the amount invoiced
for rotary units prior to modification 0022 and $4,207,526, the amount included in the initial
proposal for static units for the retrofit sites. In the revised proposal, the amount withheld by
NOAA for the defective rotary units, $996,499, was added to the initial proposal in the form of a
reduced discount, resulting in a total cost for static units for retrofit sites of $5,204,025. In the
final outcome, the amount paid for defective or removed rotary units in the amount of
$3,868,872, combined with the cost of the static units for retrofit sites in the revised proposal,
totaled $9,072,807. NOAA thus paid for all defective or removed rotary units by accepting the
reduced discount—those that initially had been paid for, as well as those for which payment had
been withheld.34




34
  It should be noted that despite the fact NOAA had paid for the removed rotary units, the prime was given title to
them.


                                                         33
U.S. Department of Commerce                                                  Final Inspection Report OSE-15676
Office of Inspector General                                                                    September 2003

  Table 4: Proposed and Actual Payment Outcome for Rotary TPS Units and Retrofit


             Outcome Originally
Date                                                                  Actual Outcome
             Proposed by Prime

As of     Amount invoiced      $4,865,371   Amount invoiced                            $4,865,371
9/30/00   for rotary TPS                    for rotary TPS
          units prior to                    units prior to
          Mod 0022*                         Mod 0022*

                                            Amount withheld by NOAA for                 (996,499)
                                            defective rotary TPS units* and agreed
                                            to by contractor in exchange for
                                            NOAA’s acceptance of reductions in the
                                            discount offered in the initial proposal
                                            for the retrofit

                                                Payments authorized by                              $3,868,872
                                                NOAA for rotary TPS units

10/6/00   Initial proposal      4,207,526   Initial proposal                           4,207,526
          for retrofit                      for retrofit
          including discount                including discount

                                                    Amount of discount reduced by      996,499
                                                    contractor in exchange for
                                                    accepting lower payment for on
                                                    rotary TPS units
11/2/00
                                                       Revised proposal                             $5,204,025


                Total          $9,072,897                     Total                                 $9,072,897


*And related maintenance




B. Contracting Personnel Did Not Receive Appropriate Review and Oversight

Negotiations for the settlement agreement and the resulting modification were complex and
required much analysis. A lack of appropriate review and oversight of the negotiation process
and of the subsequent issuance of the modification contributed to the poor negotiations that
resulted in NOAA not receiving the best value for the static TPS units.

Although a contract specialist is usually assigned to perform the daily work pertaining to a
contract or contract action, the contracting officer is ultimately responsible for performing all
necessary actions for effective contracting as well as for ensuring compliance with the terms of




                                                      34
U.S. Department of Commerce                                                     Final Inspection Report OSE-15676
Office of Inspector General                                                                       September 2003

the contract and safeguarding the interests of the United States in its contractual relationships.35
Also, according to FAR 14.405(a), the “contracting officer is responsible for exercising the
requisite judgment needed to reach negotiated settlement with the offeror and is solely
responsible for the final price agreement.” The contracting officer should request assistance and
advice from individuals specializing in contract law, audit, and engineering as needed. Requests
for reviews and approvals from technical and contracting officials, review boards and legal
counsel should be made and responded to in writing.

Because the contracting officer has ultimate responsibility, it is incumbent upon this official to
thoroughly review all solicitations, contracts, and modifications before signing them. In addition
to this review, an independent review and approval procedure or body, such as a contract review
board, would also help ensure that all laws, policies, procedures, and sound business practices
are followed and that contractual documents appropriately reflect what all parties agreed to. This
review would help the government ensure that concerns and deficiencies are identified prior to
award of the contract or modification, so that appropriate action can be taken to address any
concerns or deficiencies. Prior to September 2000, an independent quality assurance review
procedure existed for significant procurement actions, as specified in NOAA Administrative
Order 208-5 Review and Approval of Proposed Contract Awards. Implemented by Policy and
Procedure Memorandum 92-04, dated August 8, 1996, it requires modifications exceeding $5
million be reviewed by a contract review board, and approval by the Head of the Contracting
Office (HCO) for actions over $10,000,000. It also provides for contract review board review of
any significant action under the dollar thresholds. Although these procedures have not been
rescinded, we were told that NOAA Acquisition had not used them since
October 2000. Prior to that, the procedures had been used sporadically.

A GS-12 contract specialist, under the supervision of a senior contracting officer, handled the
administration of the TPMS contract. Based on our review, it appears that the contracting officer
responsible for the TPMS acquisition did not adequately review documentation and exercise
appropriate oversight, particularly for the issuance of modification 0022. Though his signature
was on the price negotiation memorandum for the modification, as well as on the modification
itself, he could offer little clarification on the information contained in the document. He
informed us that his primary role in the negotiation was that of a reviewer and that the TPMS
contract was not the only contract for which he was responsible. The contracting officer could
not provide an explanation regarding the prime’s statement in the revised proposal that NOAA
had offered to accept a reduced discount. In addition, there was scant evidence to support any
independent36 review of either the negotiation settlement or the resulting modification, which
may have identified problems, deficiencies, or weaknesses. It is not clear what review and
approval procedures were in place at the time the modification was issued. We were told that the
HCO reviewed the modification, but the contract file contains no documentation to support such
action. According to the contracting officer and OGC, legal review was obtained, but we found
no written evidence documenting this review.


35
   The Commerce Acquisition Manual, 1301.6, Section 3 specifies the roles and responsibilities of Contracting
Officers. (Also, see Federal Acquisition Regulation 1.602-2, Responsibilities.)
36
   An independent review is one in which the individuals participating in the review of an action have not been
involved in the processing of that action.


                                                         35
U.S. Department of Commerce                                          Final Inspection Report OSE-15676
Office of Inspector General                                                            September 2003

C. Price Analysis of Proposals Was Inadequate

Failure to review the proposals and conduct an adequate price analysis may have contributed to
the poor negotiations and the subsequent decision to accept the prime’s revised proposal. Our
review of the contract files did not uncover documentation to support any kind of price analysis
of the original and revised proposals. FAR 15.404-1(a)(1) states that the contracting officer is
responsible for evaluating the reasonableness of proposed prices. Without adequate analysis, it
is difficult to establish a negotiation position and determine whether proposed prices are fair and
reasonable. Although a price negotiation memorandum was prepared and signed, it included no
discussion of the results of the price analysis, or of the negotiation objectives or lack thereof.

The FAR defines price analysis as the “process of examining and evaluating a proposed price
without evaluating its separate cost elements and proposed profit.” Such analysis helps the
contracting officer develop a negotiation position that will result in a fair and reasonable price,
both for the government and the offeror (or contractor, in the case of modifications to a current
contract).37 Various price analysis techniques and procedures may be used, including
comparison with competitive published price lists and analysis of the pricing information
provided by the prime. There was no documentation in the contract files indicating that such
techniques were used for this modification.

The contracting officer did not question the reduction of previously offered discounts in the
revised proposals; in fact, during our interview he stated he was unaware that the revised
proposal contained a reduced discount. The contracting officer also did not question the lack of
competitive quotes for the static TPS unit offered by the prime. The prime was awarded this
contract as an integrator responsible for acquiring the parts and services needed to assemble the
TPMS. As such, the prime was responsible for ensuring that the services and parts obtained via
subcontractors constituted the best deal for the government. The prime, instead, had proposed its
static units and provided no evidence that it was offering a solution that constituted the best
value. There were other static units available, including units that used the newer technology
discussed in finding III (pages 20-25). Replacing the TPS was the sole reason for the negotiated
settlement, and the contracting officer should have assessed whether the price proposed for the
unit was fair and reasonable based on adequate price analysis, and whether the alternative
proposed offered the best value to the government. No such assessment was conducted.

D.         Details of the Settlement Negotiation Are Unclear

How the actual settlement was defined and negotiated is unclear. There is little documentation to
support the actual negotiation of the agreement and the resulting modification. Although a price
negotiation memorandum was prepared and signed on November 17, 2000, it does not provide
much information on the actual results of the negotiation or the events leading up to it.
Moreover, the contracting and program officials involved provided us minimal clarification. A
memorandum to the file signed by the contracting officer and reviewed by OGC attempts to
justify the negotiated settlement and the modification; however, many questions remain
unanswered.


37
     Federal Acquisition Regulation, Part 15.405, Price Analysis.


                                                           36
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

As noted, on September 26, 2000, the contracting officer sent a letter to the prime requesting a
change proposal to “remedy the deficiencies that exist with the current TPS.” A revised TPS
specification was enclosed, and a proposal was requested by October 11, 2000. The prime
submitted a proposal, dated October 6, 2000, that, as previously discussed in this report, included
savings of $2,593,083 ($1,887,179 in credits and discounts relating to the retrofit, and $705,904
for savings relating to the remaining new installations). According to the second proposal, which
was submitted November 2, 2000, NOAA had offered to accept a reduced discount in return for
the prime waiving the withheld payments of $996,499. Neither our review of the contract file
nor our discussions with cognizant program and contracting officials clarifies events or
discussions that took place between the time of the first and second proposals that would have
led to NOAA’s accepting the increased price. In fact, the officials we spoke to were unaware
that the second proposal contained an increase and that the prime had indicated that the proposal
was submitted in response to an offer made by NOAA. This lack of awareness is difficult to
understand, given the fact that the modification clearly incorporates in total the prices in the
revised proposal, and that the modification was reviewed by OGC and signed by the contracting
officer.

The contracting officer told us he did not negotiate the settlement but acted only as a reviewer,
and no official we interviewed was able to identify who actually negotiated the settlement. FAR
Part 15.406-3 requires that elements of the negotiated agreement be documented and include the
prime’s proposed prices, the government’s negotiation objective, and the negotiated price. Thus,
a negotiation position should have been developed, incorporating price proposal analysis, and the
results of all discussions should have been documented. The price negotiation memorandum
lists several individuals who “participated in the respective discussion sessions that formed the
basis of the technical and cost content of the changes associated with” the modification,
including the contracting officer, the COTR, the director of the NWS Office of Operational
Systems and other senior officials. However, no record exists of any of the discussions held
pertaining to the October 6 and November 2 proposals.

According to the contracting officer, after receipt of the October 6 proposal, NOAA was
unhappy with the offer and with the fact that the reduction from the GSA schedule and any
consideration for the failed units had been proposed together, instead of priced separately, and
contracting and program personnel met to determine the next step. At that meeting, it was
decided that someone needed to meet with the prime’s management to see whether negotiation
was possible. As a result, a management official in NWS’ Office of Operational Systems met
with an individual from the prime’s management staff, one on one, on or around
October 11, 2000. According to this official, numbers were not discussed, as he did not have
contracting authority, and his primary purpose for attending the meeting was to get the TPMS
program restarted. On November 2, 2000, the revised proposal with the reduced discount was
received.

The settlement agreement detailed in modification 0022 exactly matches the offer made by the
prime in the revised proposal, and we were unable to find any evidence that meaningful
discussions occurred. The contract files contained a spreadsheet that detailed, on a task order
basis, the difference between the October 10 and November 2 proposals and reflected that the
total amount of the increase matched the withheld payments. However, the price negotiation
memorandum does not refer to this information and does not provide details of any negotiations

                                                37
U.S. Department of Commerce                                               Final Inspection Report OSE-15676
Office of Inspector General                                                                 September 2003

or any explanation of the acceptance of the reduced discount. Moreover, the memorandum does
not provide the government’s negotiation position or the outcome. Rather, it contains a high-
level discussion devoid of detail to support the cost and price discussions. There is some
discussion on payments that had been withheld on the 24 defective units, as well as the prorated
maintenance support. However, the impact of the revised proposal and the higher prices as a
result of the reduced discounts is not analyzed.

OGC, after reviewing the price negotiation memorandum, requested additional justification for
proceeding with the modification. A memorandum to the file was prepared, which was signed
by the contracting officer on November 29, 2000, and sent to OGC, who verbally concurred with
the content. This memo states that as a result of “hard-line” negotiations conducted by the
government, payment on the 24 units and certain maintenance would not be made. It did not
address the fact that NOAA ended up paying a higher price for the retrofit of the installed TPS
units, thereby eliminating in total the impact of the stated savings.

E. NOAA Failed to Adequately Address Prime Contractor’s Contention That the
   Specification Was Impossible to Perform

In its response to the second cure notice, the prime asserted that the specification for the rotary
TPS was technologically impossible to perform. To support its position, it identified a study by
the Navy on grease life, 38 which was purported to demonstrate that available greases could not
perform for the required 5 years without breaking down. Although the applicability of the Navy
study was tenuous and its results unpersuasive as applied to the rotary TPS, NOAA allowed its
negotiating position to be weakened by accepting the prime’s assertion.

The study evaluated the performance of 11 greases for the purpose of improving the quiet life of
bearings used in submarine machinery. In its response to the cure notice, the prime argued that
the Navy study demonstrated that the requirement for a permanently sealed, lubricated bearing
on the NEXRAD rotary TPS was technologically impossible. We find the prime’s position
unconvincing for the following reasons:

•    The greases and bearings tested were different from those used on the rotary TPS.

•    The report considered the operating conditions imposed by the grease testing machines used
     in the study to be rigorous, but no comparison was made between these conditions and the
     conditions of the TPS.

•    The grease described by the prime as having a mean grease life of 21,575 hours actually had
     a longer life because one of the four bearings tested with this grease had not failed when the
     test period ended.




38
  Wong, J., Carderock Division, Naval Surface Warfare Center, September 20, 1995. Evaluation of Commercial
Greases for Potential Use as Improved Quiet Ball Bearing Lubricants for Submarine Auxiliary Machinery,
Bethesda, MD: United States Navy.


                                                     38
U.S. Department of Commerce                                                Final Inspection Report OSE-15676
Office of Inspector General                                                                  September 2003

•    Bearings tested with one of the other greases in the study experienced no failures before the
     end of the test period. At that point, these bearings had operated for an average of 29,673
     hours.

Moreover, before contract award, the capability of the rotary TPS to satisfy the reliability
requirement had to be demonstrated in factory testing. To do so, the subcontractor identified one
of its older model rotary TPS units that had been operating for 9 years and several that had
operated for more than 6 years without bearing maintenance. This information suggests that the
specification was not technologically impossible.

Despite the inconclusiveness of the grease study, NOAA formally addressed the impossibility
claim only once—in the contracting officer’s August 15, 2000, letter to the prime discussing the
latter’s response to the second cure notice in which he states that the government is “not
convinced the specifications cannot be met.” In contrast, ROC engineers’ review of the response
indicated that they supported the prime’s claim; however, we found no documented analysis to
support their position. NOAA’s ultimate acceptance substantially weakened its position in the
negotiation of the settlement agreement detailed in modification 0022. In the November 29,
2000, memorandum to the file providing justification for the modification, the primary reasons
given to accept the prime’s proposal for its static TPS were the prime’s contention of
impossibility of performance and NOAA’s expectation that the static TPS performance would
exceed specifications.

NOAA Acquisition’s November 29 memorandum contends—with OGC agreement—that the
government could be construed legally to have had superior knowledge (i.e., that NOAA should
have known the specification was impossible to perform) because it could have had access to the
Navy study. According to the contracting officer, this “superior knowledge” could have made it
difficult to argue that the specifications could be successfully met. We found no evidence to
suggest that NOAA had knowledge of the study. Moreover, in government contract law,
knowledge of one government agency will not be attributed to another government agency
unless there is a logical and meaningful connection between the two.39 Furthermore, given the
fact that the Navy report did not apply to the TPS situation and therefore did not support the
prime’s impossibility of performance argument, government knowledge of the report is
irrelevant.

Conclusion
Negotiation is a process of give and take, where the outcome should result in mutual satisfaction.
Negotiation is not successful when one side is perceived as having done significantly better at
the expense of the other. We believe this to be the case in the negotiation of the settlement
agreement. Inadequate price analysis, lack of appropriate review and oversight, and unclear and
undocumented negotiation strategies contributed to this outcome. By offering to accept the
reduced discount, NOAA paid for all the defective static units and associated maintenance, and
thus failed in its responsibility for ensuring the government receives the best value for negotiated
acquisitions.


39
  John Cibinic and Ralph C. Nash; Administration of Government Contracts, Third Edition; (Washington, D.C.:
The George Washington University, 1995), pgs. 259-260.


                                                      39
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003

Recommendations

The Director of NOAA’s Acquisition and Grants Office and Assistant Administrator for Weather
Services should take the necessary actions to ensure that:

1. Quality assurance and review procedures for significant procurement actions are established
   and implemented that clearly stipulate roles and responsibilities, and assure appropriate
   oversight and accountability.
2. Contracting personnel receive the appropriate training in cost and price analysis and
   negotiation techniques.
3. To enhance the government’s negotiating position, contracting officers seek and receive
   comprehensive explanations from technical personnel regarding applicable technical issues.

                                     ********************

Synopsis of NOAA’s Response

NOAA disagreed with our statement that the recommended negotiation approach had not been
used, and stated that the best value approach had been based on the prime’s willingness to accept
some responsibility for performance problems despite its contention that specifications were
impossible to perform. NOAA also pointed out that it considers there to be a substantial
difference between acceptance of the impossibility of performance argument and the decision not
to pursue the termination for default because of concern that the government would have
difficulty in defending such an action. NOAA also discussed that the alternative of termination
for convenience could have exposed NOAA to a substantial claim.

In our draft report, we indicated that price analysis should have identified proposed installation
costs for static units that had been purchased for testing under separate purchase orders, and for
which installation had been included. NOAA pointed out that original installation had been
temporary, and the proposed installation costs were for permanent installation.

NOAA stated that the contract specialist negotiated the agreement for the settlement, with the
assistance of the OOS lead engineer and the COTR. The departure of the contract specialist
shortly before award of the modification severely hampered the efforts of the contracting officer
and others as they completed the modification.

NOAA’s response also stated that the memorandum providing additional justification for
modification 0022 was signed on November 29, 2000, not November 17, 2000.

OIG Comments

We do not believe that NOAA obtained the best value in the negotiation of modification 0022. It
is difficult to conclude that the prime accepted much responsibility, if any, for the performance
problems, as NOAA ended up paying for all the defective rotary units, as we discuss further in
the report. The approach used was more in line with the second alternative presented at the

                                                40
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

September 6, 2000, briefing to the Assistant Administrator for Weather Services, which was to
accept the prime’s impossibility argument and to pay the additional costs. While the decision not
to terminate may have been justified, an adequate rationale was never documented. Also, clearly
some effort should have been made to negotiate and obtain a settlement that was fair and
equitable to both parties, not just the prime contractor.

NOAA’s statement that the original installation of static units for testing had been temporary,
and the proposed installation costs were for permanent installation is new information that was
not made available to us at the time of our review. As a result, we have deleted the discussion on
the installation costs.

During the course of our review, we conducted several interviews and at no time were we told
that the contract specialist negotiated the settlement agreement. One scenario presented to us
had several individuals involved; another alleged a senior NWS official negotiated the final
agreement. While contract documentation supports NOAA’s statement that the contract
specialist conducted analysis and worked with the individuals mentioned in NOAA’s response, it
is not clear who made the alleged offer to accept the reduced discount or the prices detailed in
the November 2, 2000, proposal. Also, the fact that the contracting officer had such difficulty
completing the modification at the time of the contract specialist’s departure supports our
contention there was a lack of oversight during the negotiation of modification 0022.

Where appropriate, we changed our report to indicate that the memorandum providing additional
justification for modification 0022 was signed on November 29, 2000.




                                               41
U.S. Department of Commerce                                                   Final Inspection Report OSE-15676
Office of Inspector General                                                                     September 2003



VI. Reviews of Specifications and Other Technical Information Must Be Improved

The vibration consultant concluded that the fundamental source of the bearing problem was
insufficient lubrication and excessive vibration. We found that several TPS requirements that
may not have been needed contributed to the technical and contractual issues surrounding the
bearings. Improved review and oversight of specifications and other technical information is
needed to avoid similar problems on future acquisitions of complex items.

Bearing Design
According to the FAR, an agency’s needs should be stated as performance requirements rather
than design requirements whenever feasible. However, the TPS requirement for sealed,
permanently lubricated bearings was a design requirement, which the prime used to make the
argument that the specification was impossible to perform. The requirementaimed at making
the bearings maintenance freewas unnecessary because the specification also required that
preventive maintenance not exceed 1 hour per year, a provision that would achieve the same
objective. Combined with the specification for reliability of 43,800 hours MTBF, the bearings
were required to have a maintenance-free 5-year service life without the need to stipulate their
design. However, because aspects of the bearing design were prescribed, a change to the
specification was needed to allow the subcontractor’s proposed relubrication system to be
implemented. This unnecessary requirement thus allowed the impossibility argument to be
raised and the relubrication system to be offered as a cost option.40

Vibration
The vibration consultant recommended replacing the aluminum motor end bell with an iron end
bell to reduce vibration. According to the consultant’s report, the primary benefit of iron was
increased stiffness, with increased weight being a secondary benefit in reducing vibration.
Although the subcontractor used ductile iron in the commercial version of its rotary TPS,
aluminum had been substituted specifically for NWS to satisfy the weight limit contained in the
TPS specification, a requirement that appears to have been unnecessary.

The TPS specification originally included requirements for steel frame cabinets and a weight
limit of 5,000 pounds, requirements later changed to “heavy-duty frame, metal cabinets” and a
weight limit of 7,500 pounds. When NWS learned that the subcontractor was considering using
an aluminum frame to meet the weight limit, discussions ensued as to the desirability of
aluminum because of its greater susceptibility to expansion and fatigue. Although the choice of
aluminum versus ductile iron was debated within NWS, we found no evidence that the weight
requirement itself was questioned even though it was increased by 50 percent to accommodate
the rotary TPS. During our fieldwork, we received various rationales for having a weight limit
from NWS officials. They included that the weight limit was needed because some sites were in
remote locations and a forklift could not be used to move the TPS in such locations and because
the TPS might be too heavy for some roads in remote locations.



40
  The rotary TPS bearings were actually shielded, not sealed, but were considered by the manufacturer to be
permanently lubricated, non-maintenance items.


                                                        42
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

These explanations are not supported by the TPMS specifications. The TPS specification states
that the TPS must be moveable by forklift and does not identify any locations where specialized
handling is required. The shelter specification requires sufficient floor loading capability to
support the TPS and all ancillary equipment, and it could have been left to the prime to ensure
that the shelter floor could support the TPS that it selected. Since the TPS specification had a
requirement that size, weight, and physical characteristics must not exceed the limits imposed for
commercial equipment by common surface, air, or sea carrier, there was no need to specify a
weight limit to accommodate roads. Instead, it would have been prudent to allow the contractor
to take responsibility for dealing with transportability issues.

A great deal of debate surrounded the weight requirement and the use of aluminum to meet it. E-
mails contained in the contracting officer’s files indicate that that NWS engineers ultimately
assumed that aluminum would have no effect on the operation of the TPS and the subcontractor
verbally assured NWS that this assumption was valid. However, this substitution was a
significant departure from the subcontractor’s commercial practice, but analysis was not
performed to determine whether aluminum would have any negative effects. The weight
requirement should have been validated and if found to be needed, NWS should have been
proactive in ensuring that an analysis of the potential effects of using aluminum was performed
before agreeing to this approach. Since the subcontractor used aluminum to satisfy the TPS
specification and retrofitting the TPS with a ductile iron end bell required a specification change
to eliminate or increase the weight limit, the retrofit was offered at an additional cost to the
government.

Improved integration of technical, contractual, and legal issues needed
Because specifications become legal requirements when they are incorporated into contracts, all
requirements must be necessary and expressed in a way that will allow them to withstand
contractual and legal challenges. Thus, it is essential that technical, contractual, and legal
personnel provide an integrated review of specifications and statements of work that
comprehensively addresses all technical, contractual, and legal concerns before a solicitation is
issued, particularly for the acquisition of complex items. Specification and statement of work
reviews should ensure that these documents incorporate only validated requirements and that
requirements are clear, appropriately stated, and expressed in performance terms whenever
feasible. When complex items are to be acquired, issuing a draft solicitation, including the
specifications and statement of work, for industry review and comment will also help identify
issues and needed changes before contract award and thus reduce problems during contract
performance.

Well coordinated reviews are also needed after contract award. For example, a more thorough
review of the Navy grease life study by NWS technical personnel and better communication of
its contents to the contracting officer and OGC would have strengthened NOAA’s negotiating
position on modification 0022.




                                                43
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

Recommendations

In future NWS acquisitions, the Assistant Administrator for Weather Services and the Director of
NOAA’s Acquisitions and Grants Office should take the necessary actions to ensure that:

1. NWS’ needs are stated in specifications as performance requirements rather than design
   requirements whenever feasible;

2. Specifications receive integrated technical, contractual, and legal review; and

3. Draft solicitations are issued for industry review and comment when appropriate.

                                    ********************

Synopsis of NOAA’s Response

NOAA pointed out that the independent consultant found the vibration was caused by the unit
being resonant at 120 Hz and recommended the iron end bell to change the unit’s resonant
frequency.

OIG Comment

We addressed this issue in our discussion of NOAA’s comments on finding II (page 17).




                                                44
U.S. Department of Commerce                                                 Final Inspection Report OSE-15676
Office of Inspector General                                                                   September 2003

VII. Purchase of the Engine Generators Was Outside the Scope of the Contract

In June and October 2001, engine generator upgrades were acquired at various NEXRAD sites
through modifications to the TPMS contract. These modifications were outside the scope of the
contract. The total estimated cost associated with the generator upgrades is $624,068.

On June 7, 2001, modification 0026 to the TPMS contract was issued for engine generator
upgrades for five TPS-only sites. A memorandum to the contract file signed by the contracting
officer states that the reason for these upgrades was that the sites were high-altitude snow sites
and required a larger engine generator. A subsequent modification was issued on October 24,
2001, for two upgrades to engine generators in Yuma, Arizona, and Norman, Oklahoma.
According to a memorandum prepared by the contracting officer, the engine generators were
needed to accommodate the larger air conditioning units, as well as the fact that sites were at
capacity and could not support additional power loads. This was a concern, as NWS anticipated
load increases in the future.

Under government contract law, work lies within the scope of the contract if it can be reasonably
determined to be in agreement with what had been contemplated by the parties at the time of
contract award, and was essentially the same work.41 However, the acquisition of the generators
was outside the scope of the TPMS contract because the engine generators are not part of the
specifications for the TPMS, and the replacement of the generators had not been deemed to be an
essential part of fulfilling the contract requirements. The contracting officer justified the
acquisition of the generators under the TPMS contract, stating that the use of the existing
generators had created an “impossibility for the TPS to operate.” However, NWS engineers and
the prime believed it to be outside the scope. In response to concerns expressed early in the
project by personnel from the NWS Southern and Western Regional Offices regarding the TPS
and the capacity of the generators, the ROC stated, “the TPMS project was not intended nor
funded as a replacement project for existing generators. The specification required the prime to
provide a system that could operate within the constraints of the generator…” A May 13, 1998,
Project Management Status Report submitted by the prime indicated that the capacity of the
existing electrical service including the engine generator systems had been questioned, and that
both the prime and NWS agree that replacing them lies outside the scope of the contract. The
issuance of these two modifications as changes to the TPMS contract may have prohibited the
opportunity for competition and possible savings. We found no evidence in the contract file that
OGC advice was obtained.

Recommendation

In future NWS acquisitions, the Assistant Administrator for Weather Services and the Director of
NOAA’s Acquisition and Grants Office should ensure that there is adequate review and
oversight of proposed modifications to verify and document that they fall within the scope of the
contract they are modifying.




41
     Administration of Government Contracts, Third Edition; pgs. 385-386.


                                                         45
U.S. Department of Commerce                                         Final Inspection Report OSE-15676
Office of Inspector General                                                           September 2003



                                     ********************


Synopsis of NOAA’s Response

According to NOAA, the contracting officer determined that the acquisition of the engine
generators was within the scope of the contract and neither the ROC nor the prime contractor
expressed any concerns or objections in discussing the proposed change. NOAA also makes
reference to a discussion between an OOS engineer, a contracting officer, and OGC in which it
was agreed that the change of the engine generators at a few sites was within scope. In its
response, NOAA stated that the need for an engine generator upgrade for the high-altitude snow
sites had been verified by rotary acceptance testing at Grand Junction, Colorado. NOAA also
stated that the Yuma site had power loads that were not normal at the average NEXRAD sites
and would have needed a power upgrade for either a rotary or a static unit.

OIG Comments

It is not surprising that neither the ROC engineer nor the prime contractor expressed any
objection to issuing the change request, given that both parties would benefit from such a
modificationa quick solution to the power problem and additional business for the prime.
Also, the fact that the contracting officer, in making his determination, was not aware of earlier
decisions that the engine generator upgrades were considered to be outside the scope of the
contracts reinforces our belief that improved communication between program and contracting
staff is imperative, as well as our recommendation for finding V (page 40) that contracting
officers receive comprehensive explanations from technical personnel. We were not made aware
of the discussion between the OOS engineer, contracting officer, and OGC during any of our
interviews. As NOAA stated in its response, there was no supporting documentation for any
such meeting. It is important that review and oversight of such contract actions be appropriately
documented.

Where appropriate, we have modified our discussion on the reasons given for the replacement of
the engine generators to reflect the source of our information, contract file documentation. We
have also deleted the reference to the rotary TPS, as it pertains to the Yuma, Arizona, site. We
are not questioning the need for larger engine generators at the five high-altitude sites, Yuma, or
Norman, Oklahoma, just the method of acquiring them.




                                                46
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003



VIII. Conclusion

We found that NWS paid for defective equipment and that contract modification 0022 was
negotiated and executed without proper review and oversight. Although the original decision to
use rotary TPS technology was well supported, the unit acquired was immature and unproven
and experienced severe problems. Once the rotary units began to fail, NOAA mishandled the
process of addressing the problems and selecting an alternative, with the result that it is now
completing the acquisition of a static TPS that may not be the most appropriate choice for
NEXRAD. Significant causes of the issues discussed in this report include:

•   failure to appropriately consider technical alternatives;
•   over reliance on contractor-provided technical information for decision-making;
•   poor contract negotiations;
•   unclear accountability, inadequate communications, and insufficient oversight of technical
    and contractual personnel and decisions; and
•   inadequate coordination among technical, contractual, and legal personnel for review of
    technical information.

To prevent these types of management, technical, and contractual problems from occurring on
future acquisitions, NWS and NOAA Acquisition need to perform their own evaluations to
determine any additional factors that may have caused the problems on the TPS acquisition and
identify improvements that are required in policies, procedures, and oversight. They also need to
determine whether any personnel involved in the TPS acquisition require additional training or
closer supervision.

Recommendation

The Under Secretary for Oceans and Atmosphere should ensure that the Assistant Administrator
for Weather Services and the Director of NOAA’s Acquisitions and Grants Office take the
following actions:

1. Undertake a review of their acquisition policies, procedures, and oversight to identify actions
   needed to prevent similar problems from occurring on other acquisitions. The results of this
   review should be documented and should include a time line for implementing actions to be
   taken.

2. Determine whether any personnel involved in the TPS acquisition require additional training
   or closer supervision and provide these measures as appropriate.




                                                47
U.S. Department of Commerce                                        Final Inspection Report OSE-15676
Office of Inspector General                                                          September 2003

   Appendix A. Acronyms


          AFB                 Air Force Base
          ASR                 Airport Surveillance Radar
          CBD                 Commerce Business Daily
          COTR                Contracting Officer’s Technical Representative
          COTS                Commercial-off-the-shelf
          DOD                 Department of Defense
          DOT                 Department of Transportation
          FAA                 Federal Aviation Administration
          FAR                 Federal Acquisition Regulation
          HCO                 Head of the Contracting Office
          IEEE                Institute of Electrical and Electronics Engineers
          IGBT                Insulated Gate Bipolar Transistor
          ISO                 International Standards Organization
          KVA                 One Thousand Volt-Amperes
          KW                  One Thousand Watts
          MTBF                Mean Time Between Failure
          NEXRAD              Next Generation Weather Radar
          NOAA                National Oceanic and Atmospheric Administration
          NWS                 National Weather Service
          OGC                 Office of General Counsel
          OOS                 Office of Operational System
          OSF                 Operational Support Facility
          RDA                 Radar Data Acquisition
          SCR                 Silicon Controlled Rectifier
          TDWR                Terminal Doppler Weather Radar
          THD                 Total Harmonic Distortion
          TPMS                Transition Power Maintenance Shelter
          TPS                 Transition Power Source
          UPS                 Uninterruptible Power System
          VECP                Value Engineering Change Proposal
          WSR-88D             Weather Surveillance Radar - 1988 Doppler




                                                A-1
